<html>
<title> - REOPENING THE AMERICAN FRONTIER: REDUCING REGULATORY BARRIERS AND EXPANDING AMERICAN FREE ENTERPRISE IN SPACE</title>
<body><pre>[Senate Hearing 115-68]
[From the U.S. Government Publishing Office]





                                                         S. Hrg. 115-68

               REOPENING THE AMERICAN FRONTIER: REDUCING
  REGULATORY BARRIERS AND EXPANDING AMERICAN FREE ENTERPRISE IN SPACE

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON SPACE, SCIENCE, 
                          AND COMPETITIVENESS

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]












                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-600 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
 








       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

          SUBCOMMITTEE ON SPACE, SCIENCE, AND COMPETITIVENESS

TED CRUZ, Texas, Chairman            EDWARD MARKEY, Massachusetts, 
JERRY MORAN, Kansas                      Ranking
DAN SULLIVAN, Alaska                 BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       TOM UDALL, New Mexico
RON JOHNSON, Wisconsin               GARY PETERS, Michigan
SHELLEY MOORE CAPITO, West Virginia  TAMMY BALDWIN, Wisconsin
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire


















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 26, 2017...................................     1
Statement of Senator Cruz........................................     1
Statement of Senator Markey......................................     3
Statement of Senator Nelson......................................     4
    Letter dated April 21, 2017 to Senator Cruz, Senator Markey 
      and Members of the Subcommittee from Michael J. Listner, 
      Space Law & Policy Solutions...............................    37
Statement of Senator Udall.......................................    38
Statement of Senator Peters......................................    42

                               Witnesses

Robert T. Bigelow, Founder and President, Bigelow Aerospace, LLC.     6
    Prepared statement...........................................     8
Robert Meyerson, President, Blue Origin..........................    11
    Prepared statement...........................................    13
George Whitesides, CEO, Galactic Ventures........................    17
    Prepared statement...........................................    18
Andrew Rush, CEO, Made In Space, Inc.............................    26
    Prepared statement...........................................    27

                                Appendix

Response to written questions submitted to Robert T. Bigelow by:
    Hon. Maggie Hassan...........................................    45
Response to written questions submitted to Robert Meyerson by:
    Hon. Bill Nelson.............................................    46
    Hon. Maggie Hassan...........................................    47
Response to written questions submitted to George Whitesides by:
    Hon. Bill Nelson.............................................    48
    Hon. Maggie Hassan...........................................    48
Response to written questions submitted to Andrew Rush by:
    Hon. Maggie Hassan...........................................    50

 
                    REOPENING THE AMERICAN FRONTIER:
                    REDUCING REGULATORY BARRIERS AND
                   EXPANDING AMERICAN FREE ENTERPRISE
                                IN SPACE

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                               U.S. Senate,
           Subcommittee on Space, Science, and Competitiveness,    
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:05 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Ted Cruz, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cruz [presiding], Gardner, Nelson, 
Markey, Udall, Peters, and Hassan.

              OPENING STATEMENT OF HON. TED CRUZ, 
                    U.S. SENATOR FROM TEXAS

    The Chairman. This hearing will come to order. Good 
morning.
    In 1890, the Superintendent of the Census declared the end 
to the American frontier by stating, ``Up to and including 
1880, the country had a frontier of settlement, but at present, 
the unsettled area has been so broken into isolated bodies of 
settlement that there can hardly be said to be a frontier line. 
In the discussion of its extent, its westward movement, et 
cetera, it cannot, therefore, any longer have a place in the 
census reports.''
    The American vision of westward expansion that had been 
initiated 86 years earlier through the Lewis & Clark Expedition 
had been successful in leading to the expansion of American 
commerce and settlement in a new territory that had not 
previously been chartered by American pioneers.
    Today, this committee embarks on a series of hearings 
looking at reopening the American frontier with our sights set 
on the heavens, which President Kennedy referred to as the New 
Frontier. It is only fitting that the Nation born on the last 
frontier should continue to lead the way in the new frontier.
    America must expand commerce and, ultimately, settlement 
into space, and we must do it first. This is an issue that not 
only impacts our global competitiveness, but also our national 
security. The world is much safer with America as the global 
leader on this planet, and the world will similarly be safer 
and stronger if the United States and our ideals of free 
enterprise and free speech are the driving force of commerce 
and settlement throughout the galaxy.
    For nearly 60 years, NASA has granted the United States 
access to space and has made human spaceflight a reality. In 
recent years, commercial space companies have made enormous 
strides in technological advancements and the scope of their 
business activities that are leading to a new and dynamic 
renaissance in spaceflight. This is creating the real 
possibility that in the not too distant future, American 
private citizens will be able to reach space, hopefully, from a 
launch pad or a runway in the great state of Texas.
    However, to ensure that this remains within the realm of 
the possible, Congress needs to continue to work to ensure that 
investment and innovation within the commercial space sector 
isn't chilled by obsolete regulations or overly burdensome 
requirements that may not naturally apply to new business 
models.
    As we look to the future of American free enterprise and 
settlement in space, we should also thoroughly review the 
United Nations Outer Space Treaty, which was written and 
enacted in a very different time and era in 1967. It's 
important that Congress evaluate how that Treaty, enacted 50 
years ago, will impact new and innovative activity within space 
as well as potential settlement throughout the galaxy.
    Finally, we would be remiss if this committee did not also 
explore ways that the commercial space sector, academia, and 
NASA can look to build upon current partnerships and create new 
ones that can advance human spaceflight, research, and 
discovery. As we embark together on this series of hearings and 
potential legislation, I look forward to continuing to work in 
the same strong bipartisan manner that this subcommittee has 
always worked, working with Chairman Thune, with Ranking Member 
Nelson, with our Subcommittee's previous Ranking Member, 
Senator Peters, and, also, I want to welcome the new Ranking 
Member of this Subcommittee, Senator Markey. Welcome to this 
Subcommittee.
    I will say at a time of significant partisan division on a 
great many issues, this subcommittee has been remarkable, under 
a Democratic Senate and Republican Senate, for being able to 
produce bipartisan legislation. We have produced not one, but 
two bills in the last couple of years, the Commercial Space 
Launch Competitiveness Act, which was signed into law by 
President Obama, and the NASA authorization legislation, which 
was signed into law by President Trump. In both instances, this 
committee was able to work together across party lines to 
achieve consensus and to move the ball forward.
    I look forward to our working together to continue to do so 
and to continue working on new legislation to nurture, to 
create, and to expand a vibrant commercial space sector and a 
strong NASA so that America continues to lead the world in 
space exploration.
    And with that, I'll recognize Ranking Member Nelson for an 
opening statement.
    Senator Nelson. Well, thank you, Mr. Chairman, but I want 
to defer to the Ranking Member of the Subcommittee, and then 
I'll make some appropriate comments.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey. Thank you, Mr. Chairman, very much, and I 
am thrilled here today as I launch into my new role as the 
Ranking Member on this very important subcommittee.
    Investment in science and space has helped drive the 
American economy since World War II. It has unleashed American 
innovators and entrepreneurs to develop new technologies that 
have changed the world, and it has helped us understand the 
changes in the world caused by human activities that alter the 
environment and the climate. This subcommittee has an important 
role to play in ensuring that science and space activities 
continue to help America thrive.
    Today's hearing title invokes the frontier. Next month, 
we'll celebrate the centennial of John F. Kennedy's birth. 
Science and space were an integral part of the new frontier 
that he saw in 1960. His challenge to land a man on the Moon 
opened up a new era, one in which humans travel and live beyond 
the Earth.
    Now, there are few arenas of modern life in which space 
does not play a role. From satellite navigation to 
telecommunications to monitoring storms, we rely upon space. 
But in the next few years, there will be even more activity in 
space than we have ever seen in our history. In less than a 
lifetime, we have gone from one man circling the globe to 
contemplating settlement on Mars. Now, as space exploration and 
activities evolve, it is vital that we use the lessons of our 
past to guide us as we navigate this expanding territory.
    Prior to major settlement of the American West in the 19th 
century, Congress funded a number of scientific expeditions to 
explore and understand the western territories. This government 
investment helped identify productive agricultural land and 
initiated a transportation revolution with the transcontinental 
railroads that allowed individuals and companies to succeed in 
the space age.
    Government investment in science has gotten us to the Moon 
and has put a Rover on Mars, a satellite orbiting Saturn, and 
has gazed into the depths of the universe. The Cassini 
spacecraft just began its grand finale this week and is in the 
first of its orbits around Saturn right now. The James Webb 
Space Telescope is set to be launched next year.
    Government investment in science has led the way for the 
private investment that is now flowing into space activities. 
Congress has a critical role to play to ensure that public and 
private investment is driving innovation and responsible 
development in space. And even as private companies expand 
their space activities, there is still an important role for 
public investment.
    Today, the International Space Station serves as a national 
laboratory, which has dedicated space for science experiments 
from universities, Federal scientists, and small private 
research firms that could not otherwise be attempted. These 
experiments are varied and diverse and have the potential to 
solve some of the biggest problems humanity struggles with 
today, including improving the quality and quantity of our 
global food supply, finding new cures for cancer, understanding 
antibiotic resistance, and so much more.
    We all stand to gain from supporting basic science research 
in space. We must also remember that space exploration and 
development is a global endeavor. It requires international 
cooperation and global standards, even as the space industry 
becomes more competitive.
    So I look forward to hearing from our witnesses today on 
our growing American commercial space enterprise so that all of 
our country can begin to understand this incredible future that 
is about to unfold.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Markey. I would note that 
as we launch or relaunch a focus on the new frontier, it is 
altogether fitting that our new Ranking Member would evoke 
memories of President John F. Kennedy with that unique Boston 
brogue returning to this subcommittee.
    Senator Markey. I will say this about my accent. It is not 
a Kennedy accent. That is a distinct and separate way of using 
the English language one family had that one privileged use of.
    [Laughter.]
    The Chairman. Well, and, thankfully, in my home state of 
Texas, none of us have accents in any way, shape, or form.
    [Laughter.]
    The Chairman. And with that, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman, and, indeed, it's 
fitting that the new Ranking Member of the Subcommittee is from 
Massachusetts, because it was the vision and the leadership of 
President Kennedy that picked a goal, and that goal was rather 
striking, that we were going to the Moon and back within a 
period of 9 years. The Nation marshaled the resources and met 
that goal. As a result of that ``can-do spirit'' of NASA and as 
a result of all of the spinoffs that came out of that 
technological revolution, particularly the 
microminiaturization, going to the Moon has dramatically 
improved the quality of our lives here on Earth.
    I am looking forward to that happening again now that we 
passed the NASA authorization bill. The bill sets as its goal, 
going to Mars in the decade of the 2030s, and it builds on past 
NASA authorization bills. You talk about bipartisanship, that's 
exactly what happened with your predecessor, Senator Kay Bailey 
Hutchison, and this Senator in putting together the bill that 
set NASA off on the course that you see on the manned program. 
It's a dual course of the commercial as well as NASA and then 
getting out of low Earth orbit and going to explore the 
heavens.
    I might say as a personal comment, Mr. Chairman, to your 
fitting remarks starting off about the frontier, that that 
frontier was always westward. That frontier is now upward, and 
it's inward, and as a part of that frontier, even though the 
official that you quoted in 1890 said the frontier had been 
achieved, that Homestead Act was still used for several years 
thereafter, and so it was with my grandparents.
    In 1913, if you worked the land for four continuous years 
and could prove it, the Government would deed you 160 acres of 
land. I have a copy of the deed signed by Woodrow Wilson in 
1917. That 160 acres of land today is at the north end of the 
space shuttle runway at the Kennedy Space Center. So, needless 
to say, it was not lost on me that the first morning that we 
went to the launch pad, and as it turned out, we did several 
trips--five, after four scrubs--but that first morning, I just 
couldn't believe it.
    I was the last crew member to crawl in and strap in, and as 
they were getting in, I wandered off on that launch tower by 
myself, looked in the direction of three miles away where the 
old homestead was, and just was overwhelmed, realizing that my 
grandparents, who I did not know, would have never believed 
that a grandson was going to literally leave the face of the 
Earth almost from the old homestead. So thank you for evoking 
the memories of the new frontier and that continuing frontier.
    I'll just make a couple of other comments. As I have shared 
as I've visited with our witnesses, this Senator is so excited 
to see the abandoned launch pads at Cape Canaveral, which were 
alive with activity a half a century ago, coming back to life 
as a result of a lot of the activities represented in the panel 
that you have. It took getting agencies of the Government, who 
had been in stovepipes, to finally come together. There had to 
be a little prayer session, and we had to drag them to the 
altar to have that prayer session, but between the Air Force 
and NASA and the FAA, they got their acts together, and the 
proof is in the pudding, and we see what is happening.
    And, now, in this recently completed NASA authorization 
bill, the standards were set. It brings that cooperation of all 
those agencies together in the commercial space sector, living 
alongside the necessary government launches plus the NASA 
launches that will be from Pad 39B. So it's going to be an 
exciting future.
    The transformation of the Cape is illustrative of the 
broader impacts that the space industry has to offer this 
country, and we're just getting going. Both of you happened to 
mention the telescopes. I have behind my desk in our office 
here, a compendium of 5 years of photographs taken by the 
Hubble Space Telescope, which is millions and millions of light 
years away, showing the birth and death of stars. With the new 
Hubble that we're going to launch next year, we're going to 
look back further in time, almost to the beginning. That's 
going to bring new discoveries in addition to the excitement 
that we've already seen of other suns that actually have 
planets revolving around them.
    So the challenges are there and we're ready to meet those 
challenges. The key to success is continuing a balanced space 
program, one that does not neglect science nor aeronautics, and 
along with the private space endeavors, balanced between 
cooperation and competition, as well as between risks and 
public safety. And for that, I think we're going to have a very 
exciting future.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson, and I thank you 
also for sharing the story of your grandparents and 
homesteading. And just as your grandparents could not imagine 
their grandson being launched into space, perhaps sometime in 
the future, your grandkids will be homesteading 160 acres on 
the Moon or on Mars.
    Senator Nelson. Well, Mr. Chairman, I still have two 
children that are not married, and----
    The Chairman. I can't help you there.
    [Laughter.]
    Senator Nelson. And my wife and I are worried that we're 
going to be on oxygen before we have grandchildren.
    The Chairman. Well, that gives us time to get back to the 
Moon and get to Mars.
    [Laughter.]
    The Chairman. With that, I want to welcome this 
distinguished panel of witnesses today. Thank you, gentlemen, 
for being with us this morning.
    Our first witness is Mr. Robert Bigelow, who is the Founder 
and President of Bigelow Aerospace, which manufactures and 
develops expandable space station modules. Bigelow Aerospace 
has designed BEAM, the first ever expandable space station 
module to occupy humans while in space. Prior to founding 
Bigelow Aerospace, Mr. Bigelow founded the hotel chain, Budget 
Suites of America.
    Our second witness, Mr. Rob Meyerson, is President of Blue 
Origin, where he has overseen the steady growth of the company 
since 2003. Prior to Blue Origin, Mr. Meyerson worked at 
Kistler Aerospace and as an aerospace engineer at NASA's 
Johnson Space Center. Mr. Meyerson earned a B.S. in aerospace 
engineering from the University of Michigan and a Master's 
degree in engineering management from the University of 
Houston. It's always good to see someone who has been a 
Houstonian.
    Mr. George Whitesides is the CEO of Galactic Ventures, 
which is developing a fleet of commercial space vehicles as 
well as a small satellite launch capability. Prior to joining 
Galactic Ventures, Mr. Whitesides served as Chief of Staff at 
NASA, where he provided policy and staff support to the 
agency's administrator and received the Distinguished Service 
Medal, the highest award the agency confers. Mr. Whitesides is 
an honor graduate of my alma mater, Princeton University's 
Woodrow Wilson School, and holds a Master's degree from the 
University of Cambridge in England.
    Mr. Andrew Rush is President and CEO of Silicon Valley-
based Made in Space, which specializes in the engineering and 
manufacturing of three dimensional printers for use in 
microgravity. Made in Space's 3D printer, the Zero-G printer, 
was the first manufacturing device in space. Prior to joining 
Made in Space, Mr. Rush was a partner at the PCT Law Group.
    Thank each of you for joining us.
    Mr. Bigelow, you're the first witness.

STATEMENT OF ROBERT T. BIGELOW, FOUNDER AND PRESIDENT, BIGELOW 
                         AEROSPACE, LLC

    Mr. Bigelow. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to speak to you today and present 
my views on the subject of this hearing: Reopening the American 
Frontier for Free Enterprise in Space. First, let me thank the 
Committee for the work it has done to support the commercial 
space industry.
    For over 17 years, I have personally funded the development 
of space habitat stations at Bigelow Aerospace, and I have 
spent, personally, over about $350 million in that endeavor. 
Commercializing space habitat systems will dramatically lower 
costs to NASA and other customers.
    To date, we have successfully launched three habitat 
station prototypes. These new technologies comprise the basis 
for the structure of our spacecraft and in full scale provide 
superior radiation, debris, and micrometeorite protection, as 
compared to the modules of the ISS.
    In 2006 and 2007, we launched the Genesis I and Genesis II 
prototype spacecraft from the Yasny missile base in Siberia, 
Russia. The Genesis program was the first test of these new 
technologies in the space environment. Both spacecraft exceeded 
our expectations. In April 2016, the Bigelow Expandable 
Activity Module, or BEAM for short, was launched to the 
International Space Station under a partnership agreement with 
NASA and has undergone continuous testing attached to the 
Tranquility module of the ISS.
    Today, we are focused on our primary goal, which is to 
provide customers with an affordable and safe station that can 
be augmented and outfitted for almost any type of mission, to 
almost any practical destination. Bigelow's primary spacecraft, 
the B330, offers 330 cubic meters of pressurized volume, volume 
that traditional metallic structures, including the ISS, cannot 
match in terms of total up mass per launch and at significantly 
less cost. A single fully deployed 330 expandable habitat 
provides approximately one-third of the current pressurized 
volume of the International Space Station.
    Bigelow Aerospace's business model is built on time sharing 
volume and other assets. We should view future low Earth orbit 
locations and businesses as a wellspring for deep space 
capabilities. Commercially available habitat stations like the 
B330 provide affordability and potential access to space that 
otherwise has been out of the reach for most all nations and 
companies of the world.
    NASA took the first step to address its destination deficit 
recently when it instituted the NextSTEPs program. Part of the 
NextSTEPs program is to develop the necessary technology for 
NASA to transition to deep space activities. This is achieved 
through cost savings by partnering with commercial entities to 
assist NASA's efforts to get out of low Earth orbit, return to 
the Moon, and open up other new American frontiers across the 
solar system. We at Bigelow have worked hard to keep production 
on schedule so that we can produce two flight-ready B330s by 
the end of 2020. While I hope that Congress and President Trump 
will work together to provide NASA the necessary financial 
resources it needs to succeed, I am moving ahead with the B330 
program.
    Now let me briefly describe some of the risks and threats I 
see. First, I believe that the United States is quickly 
approaching a crossroad. There are no destinations for American 
transportation systems besides the ISS. Where shall NASA and 
this Nation go once the ISS is no longer available?
    NASA will always need training and testing facilities in 
low Earth orbit and beyond. Commercially affordable facilities 
where the customer is king is the practical answer. To that 
end, NASA needs to be a strong and diverse customer of the 
commercial space industry. Bigelow Aerospace continues to 
develop partnerships with launch providers and other companies 
to ensure that NASA and other potential customers have 
alternative choices for the utilization of affordable habitat 
stations.
    But in order to achieve a truly free enterprise in space, 
NASA is too vital a customer to ignore. NASA needs the 
necessary funding and policy direction to transition from the 
ISS to supporting space missions based on utilization of 
commercially supplied space habitats and other transportation 
assets.
    China has created in their quest to develop their own 
national space program, a program that is not disconnected from 
its military. The Chinese government has made it known that it 
wants to offer free access to other countries to utilize their 
national space station in the near future. To that end, the 
Chinese and ISS partner states have discussed international 
space cooperation and partnerships. While our allies consider 
partnering with China, we should be mindful of strategic 
consequences that an engaged China could have on the future of 
American enterprise in space.
    I have had innumerable discussions about the future of 
space exploration with many people. One thing I think is clear 
is that NASA is too focused on just transportation systems to 
the ISS. Everyone wants to know what are NASA's plans to 
transition out of the ISS. Whether the ISS continues or not, 
additional destinations besides the ISS are vital to sustain a 
viable space crew and cargo enterprise with new markets that 
eventually replace the ISS.
    Moreover, I believe that if initiated soon, Bigelow 
Aerospace and other companies could provide a lunar depot using 
a B330 habitat station that would enable NASA and commercial 
entities access to the Moon and cislunar space in a 4-year 
program. If we truly commit to an initial destination in low 
Earth orbit, then following quickly to cislunar space, I 
believe that expandable habitats can offer NASA and others the 
ability to test and gain experience for future missions to the 
Moon and Mars.
    That concludes my written remarks. Thank you, and I look 
forward to your questions.
    [The prepared statement of Mr. Bigelow follows:]

    Prepared Statement of Robert T. Bigelow, Founder and President, 
                         Bigelow Aerospace, LLC
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to speak to you today and to present my views on the 
subject of this hearing: Reopening the American Frontier for Free 
Enterprise in Space. First, let me thank the Committee for the work it 
has done to support the commercial space industry. The Committee has 
been an invaluable leader in providing coherent space policy and 
supporting the private sector's ability to compete to make America a 
leader in human spaceflight once again. However, over the next two 
years, Congress will need to address a variety of risks and threats to 
free enterprise in space. Congress has the important role to establish 
the business and regulatory environment necessary for the viability of 
low Earth orbit and cislunar economies to develop. Much work is left to 
do.
    For over seventeen years, I have personally funded the development 
of space habitat stations at Bigelow Aerospace. I am proud of the 
accomplishments my company has made in the development of expandable 
habitat systems, architecture that Congress forced NASA to abandon in 
the 1990s. I personally have spent over $350 million designing, 
manufacturing, testing, and launching hardware because commercializing 
expandable habitat systems will dramatically lower costs to NASA and 
other customers, providing affordable destinations, and thereby 
enabling the growth of new markets in space.
    To date, we have successfully launched three habitat station 
prototypes. These new technologies comprise the basis for the structure 
of our spacecraft and in full-scale provide superior radiation, debris 
and micro-meteorite protection as compared to the modules of the ISS. 
In 2006 and 2007, respectively, we launched the Genesis I and II 
prototype spacecraft from the Yasny missile base in Siberia, Russia. 
The Genesis program was the first test of these new technologies in the 
space environment. Both spacecraft exceeded our expectations and we 
achieved invaluable data from those test flights. In April of 2016, the 
Bigelow Expandable Activity Module, or BEAM, was launched to the 
International Space Station (``ISS'') in the trunk of the SpaceX Dragon 
cargo vehicle under a partnership agreement with NASA. BEAM was 
expanded in May of 2016 and has undergone continuous testing attached 
to the Tranquility module of the ISS. The BEAM program helps NASA and 
Bigelow Aerospace understand and demonstrate the strong viability of 
these new technologies that make up the base architecture of expandable 
habitats. And I would like to note that the BEAM exemplifies the first 
time the ISS has been augmented with habitable volume since the end of 
the shuttle program in 2011.
    Today, I am focused on our primary goal, which is to provide 
customers with an affordable and safe station that can be augmented and 
outfitted for almost any type of mission to almost any practical 
destination in space. Bigelow's primary spacecraft, the B330, offers 
330 cubic meters of pressurized volume; volume that traditional 
metallic structures--including the ISS--cannot match in terms of total 
up mass per launch at significantly less cost. A single, fully deployed 
B330 expandable habitat provides approximately one third of the current 
usable volume of the ISS. We have the ability to dramatically increase 
the usable volume in space, to double and triple that of the ISS, with 
single digit launch rates. This illustrates the advantages that Bigelow 
Aerospace's habitat technology provides to the market and to NASA. The 
opportunities my company can enable through our habitat architecture 
will help revolutionize the commercial space industry provided that the 
regulatory environment remains minimal, transparent, and clear.
    What Bigelow Aerospace seeks to achieve is to offer the market 
affordable, safe, and robust habitat technology. While NASA early on 
envisioned the original architecture of expandable habitat technologies 
through the Transhab program in the 1990s, Bigelow Aerospace has 
created many innovations and is now marketing the concept. The Bigelow 
Aerospace business model is built on time sharing volume and other 
assets. As a long-time real estate developer in the United States 
southwest, I know something about selling volume and time. We should 
view future low Earth orbit locations and businesses as the wellspring 
for deep space capabilities because it makes affordable the operational 
experience, increases performance efficiencies, provides for more 
robust technologies, and supports novel applications necessary for deep 
space missions. Commercially available habitat stations like the B330 
provide affordability and potential access to space that otherwise has 
been out of reach for almost all nations and companies of the world. 
Whether the volume and time are used for traditional science, 
manufacturing, on-orbit servicing, or tourism, to list a few uses, we 
cannot get the necessary economies for free enterprise unless we start 
to address some of the existential and near-term issues that will 
affect America's future in space.
    NASA took the first step to address its destination deficit 
recently when it instituted the Next Space Technology for Exploration 
Partnerships program, also known as NextSTEPs. Part of the NextSTEPs 
program is to develop the necessary technology for NASA to transition 
to deep space activities. This is achieved through cost-savings by 
partnering with commercial entities to assist NASA's efforts to get out 
of low Earth orbit, return to the Moon and open up other new American 
frontiers across the Solar System. As a Phase I and II awardee of the 
NextSTEPs habitation program, we have worked hard to keep production on 
schedule so that we can produce two flight-ready B330s by the end of 
2020.
    While I hope that the Congress and President Trump will work 
together to provide NASA the financial resources it needs to succeed, I 
am moving ahead with the B330 program. As noted, we are on schedule to 
have two flight-ready B330s completed by the end of 2020 for any 
customer. Therefore, as this Committee deliberates over the creation of 
a new commercial space bill, I believe that the Congress should concern 
itself with the necessary business and regulatory environment for 
habitats to serve as the backbone for all activities in space. 
Commercial space station development is underway now. I do not believe 
that we need more reports on space activities. What we need is forward-
thinking on how to ensure that America is leading the way to commercial 
space stations as well as the means by which to permit our customers to 
achieve the full value of space. The Congress has already enacted the 
right for Americans to obtain space resources. Now it is time to 
consider how to give life to those rights. Not only in the form of 
title, but laying out the conditions for space commercialization in the 
ways that Americans have always substantiated their rights to 
commerce--through registry and notice of business activities. This will 
be essential to provide operational safety, integrity of revenue 
streams, and evidence in future litigation regarding commercial rights 
to operate and use space resources in situ. I believe addressing the 
issue of registry and notice will help grow investor confidence in 
space activities enabling the large capital investments needed to 
provide certainty in the market as it develops over time.
    Now let me briefly describe some of the risks and threats I see the 
Congress needing to address. First, I believe that the United States is 
quickly approaching a cross-road where opportunities will rapidly arise 
from the innovative space technologies Bigelow Aerospace and other 
companies are currently developing. There are no destinations for 
American transportation systems besides the ISS. Where shall NASA and 
this Nation go once the ISS is no longer available? NASA will always 
need training and testing facilities in LEO and beyond. Commercially 
affordable facilities, where the customer is king, is the practical 
answer. We should not repeat the mistakes of the past to move on 
without a plan. We should not move ahead by allowing others to lead. 
This nation should recommit itself to returning to the Moon and then on 
to Mars because it is the only practical way to guarantee that future 
space activities will have a foundational infrastructure capable of 
growing and maintaining stable economies to ensure NASA and American 
enterprise can continue to explore and utilize space. To that end, NASA 
needs to be a strong and diverse customer of the commercial space 
industry.
    Second, Bigelow Aerospace is committed to playing a vital role to 
ensure that there is no ``space station'' gap like there was a 
``shuttle gap'' that cut-off American independence in human 
spaceflight. Bigelow Aerospace continues to develop partnerships with 
launch providers and other companies to ensure that NASA and other 
potential customers have alternatives and choices for the utilization 
of affordable habitats. My company is ready to provide the means to 
achieve the twin goals of exploration and the development of a 
sustainable space economy. Bigelow Aerospace is ready to take the next 
step in human spaceflight to ensure that America regains its leadership 
role in the exploration of space. But in order to achieve a truly free 
enterprise in space, NASA is too vital a customer to ignore. NASA needs 
the necessary funding and policy direction to transition from the ISS 
to supporting space missions based on utilization of commercially 
supplied space habitats and other transportation assets.
    Third, regulatory processes should be streamlined, transparent, 
fair, and appealable. The proliferation of commercial activities in 
space has led to many challenges for the industry and government. That 
is why in 2013 Bigelow Aerospace asked the Federal Aviation 
Administration's Office of Space Transportation (FAA AST) if there 
would be any regulatory obstacles to launching and landing a Bigelow 
habitat on the surface of the Moon. As a result of this trailblazing 
effort, FAA AST, in consultation with the Department of State (DOS), 
NASA, and several other relevant Federal entities, adopted a major 
policy change regarding how to evaluate private sector missions to the 
Moon. Through FAA AST leadership, the Federal government has begun to 
understand that the commercial space industry needs a workable 
framework to enable and support innovative commercial space activities 
in space and on planetary bodies. I especially applaud the tremendous 
efforts of FAA AST Associate Administrator George Neild, DOS Director 
of the Office of Space and Advanced Technology Ken Hodgkins, and DOS 
Attorney-Advisor Brian Israel in achieving this most productive policy 
change. I know that Congressmen Brian Babin and Jim Bridenstine are 
working hard to achieve the regulatory balance of liberty, safety, and 
international obligations. We are grateful for all their efforts 
because American leadership in space policy will be essential to expand 
the American principles of free enterprise and self-determination into 
space, enabling the same successes in space that these principles have 
realized domestically.
    Fourth, the Committee should take note of the strong international 
competition China has created in their quest to develop their own 
national space program--a program that is not disconnected from its own 
military. As I understand it, the Chinese seek to develop their own 
commercial space industry--I assume commercial with Chinese 
characteristics. The Chinese government has made it known that it wants 
to offer ``free access'' to other countries to utilize their national 
space station in the near future. To that end, the Chinese and ISS 
partner states have discussed international space cooperation and 
partnerships. Among others, I am aware that the governments of China 
and Italy have signed a memorandum of understanding regarding space 
cooperation, and that many pressurized space modules are manufactured 
in Italy. As a successful businessman, I know nothing is free. And 
while our allies consider partnering with China, we should be mindful 
of the strategic consequences that an engaged China could have on the 
future of American enterprise in space. I urge the Committee to 
consider the disruptive strategic role China will likely play as NASA 
and the commercial space sector expand beyond low Earth orbit 
especially in light of the Chinese launch of its first cargo spacecraft 
to its unmanned space station to conduct a refueling mission last week.
    I have had innumerable discussions about the future of space 
exploration with many Americans, foreign officials, and business 
people. One thing I think is clear, is that NASA is too focused on just 
transportation systems to the ISS. Everyone wants to know: what are 
NASA's plans to transition out of the ISS? Whether the ISS continues or 
not, additional destinations besides the ISS are vital to sustain a 
viable space crew and cargo enterprise with new markets that eventually 
replace the ISS. NASA must transition out of low Earth orbit and into 
deep space. I therefore urge the Committee to acknowledge that 
developing new habitat systems that can carry humans, experiments, 
cargo, and other technologies for the exploration of the Moon, Mars, 
and other destinations must begin in low Earth orbit and then proceed 
to cislunar space. Moreover, I believe that if initiated soon, Bigelow 
Aerospace and other companies could provide a lunar depot using a B330 
habitat station that would enable NASA and commercial entities access 
to the Moon and cislunar space in a four year program. If we truly 
commit to an initial destination in low Earth orbit then following 
quickly to cislunar space, I believe that expandable habitats can offer 
NASA and others the ability to test and gain experience for future 
missions to the Moon and Mars.
    I believe that this country has an opportunity in the very near 
term to re-inspire our citizens and begin developing and marketing new 
innovative space products and services to the American people and the 
world. I believe that the next five years will be consequential to the 
future success and health of a commercial space industry in LEO and 
beyond LEO. I am eager to work with the Congress to find ways in which 
we can ensure cost-effective, robust, and safe habitation systems that 
will enable America to lead space exploration and commercialization to 
make America great again in space!
    This concludes my written remarks. Thank you and I look forward to 
your questions.

    The Chairman. Thank you, Mr. Bigelow.
    Mr. Meyerson.

           STATEMENT OF ROBERT MEYERSON, PRESIDENT, 
                          BLUE ORIGIN

    Mr. Meyerson. Chairman Cruz, Ranking Member Markey, Ranking 
Member Nelson, and members of the Subcommittee, thank you for 
the opportunity to speak with you today about reopening the 
American frontier and Blue Origin's place in this future.
    Blue Origin was founded to bring about a future where 
millions of people are living and working in space, which would 
certainly equate to a large expansion of the American frontier. 
We believe that the backbone of this vision is to achieve full 
operational reusability to lower the cost of access to space 
and increase safety and reliability. We've recently made great 
progress flying our fully reusable New Shepard vehicle to space 
and back five times in less than 12 months and are now building 
New Glenn which will launch people and payloads to low Earth 
orbit and beyond.
    The passage of the Commercial Space Launch Competitiveness 
Act in 2015 helped lay the groundwork for much of what we plan 
to do in the coming years, and for that, I would like to thank 
you for your leadership. As you prepare to take the next step, 
we would like to offer a few suggestions.
    The FAA Office of Commercial Space Transportation, or AST, 
does a good job of balancing its requirement to protect the 
uninvolved public with its statutory mandate to promote the 
commercial spaceflight industry. AST's budget has remained flat 
for several years while the number of launches has continuously 
increased. We join the rest of the commercial spaceflight 
industry in urging Congress to increase funding for AST to 
allow the office to operate as a responsive and effective 
agency.
    That said, we encourage Congress to ensure that AST is 
prioritizing its resources on its current statutory mission. We 
believe AST's resources are insufficient to meet its existing 
obligations and do not believe AST should take on new 
authorities now, such as on-orbit authority, space situational 
awareness, or space traffic management. We want to work with 
AST on the impending licensing traffic jam before they start 
taking on orbital traffic jams.
    As Blue Origin initiates the application to license our New 
Glenn reusable launch vehicle, we are encountering conflicting 
expectations on the regulatory process between FAA and the Air 
Force. This conflict stems from the lack of a Federal 
adaptation to the market, which is transitioning from 
expendable rockets to reusable rockets. In contrast to those 
for expendable rockets, the Air Force and AST licensing 
requirements for reusable rockets are completely different from 
each other.
    While pursuing an FAA launch license for our New Glenn 
launch at a Federal range, we simultaneously have an entirely 
different but equally rigorous set of deliverables for the Air 
Force, all for the exact same vehicle. This is duplicative and 
onerous and will increase costs, delays, and uncertainty. In 
his previous role as Commander of Air Force Space Command, 
General Hyten wrote a Commander's Intent Memorandum in March 
2016 which highlights the necessity for the Air Force to work 
with the FAA to eliminate duplicative requirements and 
approvals.
    The leadership of the 45th Space Wing understands the need 
to transition to a commercial model and has begun working with 
Blue Origin and the rest of the industry to adapt processes to 
facilitate these partnerships. That said, the leadership's 
vision has not yet been fully adopted at all levels of the Air 
Force. As a result, the Air Force has not yet realized its full 
potential to move at the velocity required to support 
commercial operators. We are hopeful that with continued 
leadership from the Air Force, FAA, and this subcommittee, this 
issue will be fully addressed in the near term.
    Ultimately, we want AST to be the single point of contact 
within the Government for all commercial launches. We would 
like AST to have sole authority over launches and re-entries 
without regard to location or type of launch. At Federal 
ranges, commercial launches now require duplicative government 
approvals, delaying launch activity and burdening launch 
providers. This area is primed for increased efficiency in 
government operators.
    Finally, I'd like to express our strong support for NASA's 
use of Other Transaction Authority Agreements and other 
innovative contracting mechanisms, such as those used in 
Commercial Crew and Cargo and the NextSTEP programs. Public-
private partnerships allow government and industry to work 
toward common goals in a more efficient, agile, and cost-
effective manner and expands the resources available for space 
exploration.
    In March of this year, we announced the Blue Moon Lunar 
Lander to land large amounts of payload on the lunar surface. 
Blue Origin is willing to significantly invest in this 
development as part of a public-private partnership with NASA 
in the interest of achieving a return to the Moon, which we 
believe to be a worthy national goal.
    Thank you for the opportunity to testify before you today. 
I look forward to working with you on an updated Commercial 
Space Launch Act this Congress, and I look forward to answering 
your questions.
    [The prepared statement of Mr. Meyerson follows:]

     Prepared Statement of Robert Meyerson, President, Blue Origin
    Chairman Cruz, Ranking Member Markey, Chairman Thune, Ranking 
Member Nelson, and members of the Subcommittee, thank you for the 
opportunity to speak before you today about reopening the American 
frontier, and Blue Origin's place in this future.
    Lewis and Clark's preliminary exploration of the Pacific Coast in 
1805 initiated 85 years of exploration and discovery of the American 
Frontier. Following in their footsteps, settlers spread throughout the 
Western territories, expanding American opportunity and realizing the 
region's potential up until the Frontier's ``declared'' closure in 
1890. Much like that 19th century expedition, NASA has been 
trailblazing the space frontier for nearly 60 years, yet the same 
expansion of American opportunity seen in the 1800s has not been fully 
realized in space.
    Jeff Bezos founded Blue Origin to bring about a future where 
millions of people are living and working in space, which would 
certainly equate to quite a large expansion of the American frontier. 
As the company's president, it is my job to make this vision a reality 
for humanity, our customers, and our now more than 1,000 people working 
tirelessly for Blue Origin across the Nation. We believe that the 
backbone of this vision is to achieve full operational reusability with 
our launch vehicles which will lower the cost of access to space, at 
higher flight rates and higher levels of safety and reliability. We 
will get there through practice, and we've recently made great progress 
flying our fully reusable New Shepard vehicle to space and back five 
times in less than 12 months. We are now building New Glenn, our next-
generation reusable rocket which will launch people and payloads to low 
Earth orbit and beyond.
    Our near-term goal is to compete in the commercial market--whether 
suborbital, orbital, or beyond--selling launch services and 
technologies. We are building the next generation of transportation 
infrastructure: reliable, affordable, frequent rides to space for 
everything from suborbital tourism to long-range exploration, from 
resource mining to microgravity manufacturing.
    We recently entered into agreements with our first two commercial 
satellite launch customers for our New Glenn vehicle. We are prepared 
to partner with NASA for crewed and uncrewed space missions, including 
a return to the Moon within the next four years. We are ready to help 
end the military's reliance on Russian engines for our national 
security launches. What makes us most excited about building this 
infrastructure--this backbone--is the American entrepreneurialism that 
will undoubtedly flourish in space.
    The passage of the Commercial Space Launch Competitiveness Act in 
2015 helped lay the groundwork for much of what we plan to do in the 
coming years, and for that I would like to thank Chairman Cruz, 
Chairman Thune, Senator Peters, Ranking Member Nelson, Senator Udall, 
and the other members of this Subcommittee in the previous Congress for 
your leadership. As you prepare to take the next step, we would like to 
offer a few suggestions.
AST Focus/Resources
    The FAA Office of Commercial Space Transportation, or AST, does a 
good job of balancing its requirement to protect the uninvolved public 
with its statutory mandate to promote the commercial spaceflight 
industry in the United States. AST's budget has remained essentially 
flat for several years, while the number of launches has continually 
increased, and is likely to continue growing. We join the rest of the 
commercial spaceflight industry in urging Congress to increase funding 
for AST to allow the office to operate as a responsive and effective 
agency.
    That said, we encourage Congress to ensure that AST is prioritizing 
its existing, and any new resources, on its current statutory mission. 
As discussions continue on authorities that may be granted to AST in 
the future, we believe that AST's resources are already insufficient to 
meet its existing obligations; licensing launches, reentries and 
spaceports. We recommend that AST not attempt to handle on-orbit 
authority, space situational awareness, or space traffic management at 
this time. We do not believe that AST should take on these new 
authorities now, but we take no position here on whether any of these 
roles may be appropriate for AST in the future.
    Furthermore, Blue Origin strongly supports the continuation of both 
the current launch indemnification regime and the learning period on 
human spaceflight regulations. We encourage permanent indemnification 
as well as ongoing Congressional advocacy and extensions of the 
learning period. These policies allow the industry to focus on 
continued maturation of innovative technologies without unnecessary 
burdens.
Expendable v. Reusable and the Need for Streamlining
    One specific example of the need for a single point of access and a 
streamlined regulatory process is the transition from expendable 
rockets to reusable rockets. Blue Origin is a leader of this 
transition, having launched and landed the same rocket five times.
    The licensing requirements for reusable rockets differ from those 
for expendable rockets. In the case of expendable rockets, the Air 
Force's requirements match AST's requirements almost word for word. 
This means that a company can create a set of deliverables for the Air 
Force and essentially provide the same information to AST to satisfy 
launch license requirements. It is duplicative, but not onerous.
    In contrast, the Air Force and AST licensing requirements for 
reusable rockets are completely different from each other. Blue Origin 
is seeking an AST reusable launch vehicle license for an orbital class 
booster operating at a Federal Range. While pursing our FAA launch 
license, we simultaneously have an entirely different but equally 
rigorous set of deliverables for Air Force certification--all for the 
exact same vehicle. This is duplicative and onerous.
    The government is placing a requirement on Blue Origin and other 
commercial companies that will increase costs, delays, and uncertainty. 
Instead of encouraging and rewarding companies that are innovating and 
driving launch costs down, the current process is punishing those 
companies with red tape, and creating excessive barriers to launch.
    In his previous role as Commander of U.S. Space Command, General 
Hyten wrote a memorandum in March of 2016 on ``Commander's Intent on 
Range Support to Commercial Space Launch.'' The memo highlights the 
necessity for the Air Force to work with the FAA to eliminate 
duplicative requirements and approvals in order to support ``a more 
stable, predictable and efficient interaction with commercial space 
activities.'' To effectively accomplish this mission, General Hyten 
recognized the need to ``actively seek opportunities to adapt range 
operations, processes and policy to flexibly accommodate all users.''
    The leadership of the 45th Space Wing at Patrick Air Force Base in 
Florida understands the need to transition to a commercial model, and 
has begun working with Blue Origin and the rest of the industry to 
adapt processes to facilitate these partnerships. That said, the 
leadership's vision has not yet been fully adopted at all levels of the 
Air Force. As a result, the Air Force has not yet realized its full 
potential to move at the velocity required to support commercial 
operators. We are hopeful that with continued leadership from the Air 
Force, FAA, and this Subcommittee, this issue will be fully addressed 
in the near term.
AST Licensing
    Ultimately, we seek streamlined deliverables, irrespective of 
vehicle type, in alignment with the structure of 14 C.F.R. Part 431, 
``Launch and Reentry of a Reusable Launch Vehicle''. This means we want 
AST as the single point of contact for any commercial spaceflight 
company interactions with the government. We would like AST to have 
sole authority over launches and reentries, without regard to location 
or type of launch, consistent with the National Space Transportation 
Policy. When operating our New Shepard reusable launch vehicle at our 
private launch site in West Texas, the licensing process is much more 
efficient since we deal only with the FAA. At Federal ranges, however, 
licensing the same commercial launches requires duplicative government 
approvals delaying launch activity and burdening launch providers--this 
area is primed for increased efficiency in government operations.
Government Overreach
    Recently Blue Origin and a number of other companies in the 
industry received a notification from the U.S. Department of Commerce, 
Bureau of Industry and Security that they are conducting a ``survey and 
assessment of organizations responsible for the research, design, 
engineering, development, manufacture, test, and integration of rocket 
propulsion-related products and services.'' The survey is intended to 
assess the health and competitiveness of the rocket propulsion 
industrial base, and is apparently being shared with 400 propulsion 
related organizations. The survey contains several hundred extremely 
detailed questions, and we have some concerns with sharing our 
proprietary and confidential information. Blue Origin is a private 
company that is currently not participating in major government 
contracts, and we are hoping to work with Congress and the Department 
of Commerce to identify a reasonable path forward to share information.
NASA Public-Private Partnerships
    The U.S. Government seeks to become more efficient, agile and cost-
effective through public-private partnerships. NASA's use of Other 
Transaction Authority, Space Act Agreements, and other innovative 
contracting mechanisms has produced incredible results while reducing 
government spending. The unique risk-and-cost-sharing regimes, such as 
those seen in the Commercial Crew, Cargo, and NextSTEP Programs, enable 
true collaboration toward national space priorities.
    We believe that the national goal should be to return to the Moon, 
this time to stay. NASA has identified cislunar space as the strategic 
high ground, an enabler of grander exploration into our solar system, 
and a source of critical resources. In March of this year we announced 
our Blue Moon Lunar Lander Mission, the capability to precisely soft-
land large amounts of payload on the lunar surface. Such capability is 
a necessity for future lunar settlement and exploration. Blue Origin is 
willing to significantly invest in this development as part of a 
public-private partnership with NASA, in the interest of achieving this 
ambitious national priority.
NASA Enhanced Use Leasing/In-Kind Consideration
    NASA's Enhanced Use Leasing (EUL) authority allows NASA Centers to 
lease underutilized NASA real property to private sector entities, 
academic institutions, and state and local governments. The authority 
helps preserve unique assets that NASA may want to use in the future, 
rather than allowing them to fall into disrepair. EUL authority also 
allows for a more productive use of the land that NASA must retain as a 
``buffer zone'' around its launch and test sites. Revenues received 
under EULs cover NASA's full costs in connection with the leases. Any 
remaining proceeds must be used for maintenance, capital 
revitalization, and improvement, thereby positioning the Agency to 
reduce operating costs, incrementally improve facility conditions, and 
improve mission effectiveness. The NASA Transition Authorization Act of 
2017 extended NASA's EUL authority to the end of 2018.
    We support extending EUL authority an additional five years, and 
expanding the agency's authority to accept ``in-kind'' contributions 
toward the lease. This will help NASA cultivate public-private 
partnerships to transform underutilized real property, including launch 
and test infrastructure remaining from the Apollo and Space Shuttle 
eras, to serve broader science, exploration, defense, and commercial 
interests. As an example this authority has been critical in helping 
NASA's Kennedy Space Center create a multi-user spaceport environment 
that is drawing commercial launch and satellite enterprises to 
efficiently use once vacant buffer space while creating a thriving 
commercial space nexus. Of course, any expansion of the authority 
should protect against possible abuses, particularly for leases 
involving in-kind contributions.
New Shepard Suborbital Research & NASA Flight Opportunities
    Starting in 2016, Blue Origin began flying research payloads on our 
New Shepard vehicle, allowing university researchers, corporate 
technology developers, and even K-12 STEM programs to access the space 
environment at lower cost and with lower barriers than ever before. The 
results from these studies are changing the way we understand fields as 
varied as fluid physics, spaceflight medicine, and planetary science.
    Examples of payloads flying on New Shepard include:

  <bullet> Purdue University in Indiana, characterizing effective tank 
        geometries for in-space propellant management

  <bullet> Orbital Medicine, Inc. of Virginia, developing devices for 
        critical spaceflight medical care

  <bullet> A collaboration between the University of Central Florida, 
        Southwest Research Institute in Colorado, and the University of 
        Braunschweig in Germany to examine rock and particle collisions 
        in low-g environments, such as asteroids and the early solar 
        system

  <bullet> High school students in Washington State, studying the ways 
        that liquids of different densities behave in microgravity

  <bullet> NASA centers in both Ohio and Texas, characterizing 
        suborbital flight environments to support the agency's broader 
        research portfolio.

    Today, the majority of Blue Origin's payloads are funded by NASA's 
Flight Opportunities Program within the Space Technology Mission 
Directorate (STMD). They serve to develop technologies for Earth-based 
applications, orbital satellite missions, and ISS investigations. This 
program has been critical in facilitating the use of emerging 
suborbital commercial vehicles, like New Shepard, and we support full 
funding for the Flight Opportunities line item in future NASA 
appropriations. Additionally, we strongly encourage NASA's efforts to 
widen this aperture beyond STMD to include the broader agency's science 
and education objectives.
    As we enter the era of frequent private human spaceflight, Blue 
Origin looks forward to taking both tourists and researchers aboard New 
Shepard. We ask that Congress direct NASA to remove the barriers that 
exist today for experts seeking to conduct hands-on research aboard 
suborbital vehicles. Furthermore, we advocate for human-tended 
suborbital research to be treated in the same manner as other 
challenging laboratory environments, such as undersea and Antarctic 
outposts, and not as equivalent to commercial orbital crew.
    Ultimately, as the cost and frequency of space access dramatically 
improves with vehicles like New Shepard, spaceflight R&D is growing 
beyond its cradle at NASA. We are entering an era where every 
Congressional district and every Federal agency should evaluate how it 
can take advantage of the space environment for discovery-based 
science, technology breakthroughs, inspiring STEM learners, and 
catalyzing American business innovation. We hope Congress will join us 
in this broader view, and will consider how this new era supports not 
only NASA's objectives, but those of the wider government and the 
entire nation.
National Security
    Air University recently published a report that highlights the 
necessity for the Department of Defense to take advantage of commercial 
spaceflight capabilities to increase Air Force resiliency in space and 
extend the service's reach. Doing so will allow the government to 
leverage fast, low-cost access to space. While we recognize that it may 
be many years before the Air Force is prepared to use a flown rocket, 
Blue Origin has stepped in to assist the Air Force in assuring access 
to space with our BE-4 rocket engine. A 550,000lbf thrust liquid 
oxygen, liquefied natural gas engine, the BE-4 is in full-scale testing 
and is the fastest path and lowest cost option to end American reliance 
on Russian rocket engines.
Conclusions
    Blue Origin was founded to bring about a future where millions of 
people are living and working in space. With low-cost, safe, and 
frequent access--achieved through reusable launch technology--an 
entrepreneurial explosion can begin in space, irreversibly expanding 
the American Frontier.
    Addressing the below recommendations will allow the government and 
industry to interact more efficiently, develop stronger partnerships 
towards shared goals, and work toward America's full potential in 
space.

  <bullet> AST Focus/Resources--Increasing funding for FAA AST and 
        encouraging prioritization of their current mandates will allow 
        the office to continue operating as a responsive and effective 
        agency.

  <bullet> AST Licensing--Designating AST as the single point of 
        contact for commercial space companies will eliminate 
        duplicative approvals and streamline the launch process.

  <bullet> Expendable vs. Reusable--Embracing and readying for the next 
        generation of reusable vehicles will allow the government to 
        fully realize a new era of low-cost launch for its most 
        valuable payloads.

  <bullet> Public-Private Partnerships--Increasing the pursuit of 
        innovative public-private partnerships, like the proposed Blue 
        Moon lunar lander mission, will allow us to collectively 
        achieve ambitious national priorities at the lowest cost.

  <bullet> NASA Enhanced Use Leasing (EUL)--A five-year extension of 
        NASA's EUL authority and ``in-kind consideration'' will 
        reinvigorate and preserve underutilized property, often of vast 
        historical national significance.

  <bullet> Suborbital Research--Renewed and ongoing support for 
        suborbital research will not only change the way we understand 
        fields like science and medicine, but will also grant students 
        unprecedented, low-cost access to space.

  <bullet> National Security--The Blue Origin BE-4 American made engine 
        is the fastest path and lowest cost option to end American 
        reliance on Russian rocket engines.

    Thank you for the opportunity to testify before you today. I look 
forward to working with you on an updated Commercial Space Launch Act 
this Congress.

    The Chairman. Thank you.
    Mr. Whitesides.

             STATEMENT OF GEORGE WHITESIDES, CEO, 
                       GALACTIC VENTURES

    Mr. Whitesides. Chairman Cruz, Ranking Member Markey, 
Ranking Member Nelson, and members of the Subcommittee, thank 
you for the opportunity to testify today about how our 
companies can help reopen the American frontier in space.
    Space represents the best of America: discovery, 
inspiration, cooperation, but also courage, competitiveness, 
and resolute determination. The women and men in our company, 
as in others, I consider among the American explorers of the 
21st century.
    I'm the CEO of Virgin's Galactic Ventures, and I'm here to 
represent our human spaceflight program as well as our small 
satellite launch capability. We have three commercial space 
companies within the Virgin space portfolio: Virgin Galactic, 
Virgin Orbit, and The Spaceship Company. Together, our team 
employs over 800 direct staff and many more contractors and 
suppliers across virtually every state in the nation, and we 
look forward to commercial operations in Senator Udall's state 
soon.
    Virgin Galactic will operate SpaceShipTwo, a suborbital 
spaceflight system that is manufactured and tested by The 
Spaceship Company. SpaceShipTwo is a rocket plane that is 
deployed from a carrier aircraft called WhiteKnightTwo and is 
designed to safely transport people and payloads to space on a 
frequent basis. Ultimately, we aspire to evolve this technology 
to provide high-speed, point-to-point transportation services 
between continents.
    Galactic's sister company, Virgin Orbit, is developing and 
manufacturing a dedicated orbital rocket for small satellites 
called LauncherOne. LauncherOne is a two-stage, liquid 
propulsion rocket deployed from a Boeing 747 that we ultimately 
plan to operate weekly.
    Today, hundreds of companies around the world as well as 
many important parts of the U.S. Government are developing 
small satellites for everything from communications to remote 
sensing applications. LauncherOne will offer a flexible and 
affordable launch service for such satellites beginning in 
2018. Both SpaceShipTwo and LauncherOne will operate under an 
FAA operator's license issued by the Office of Commercial Space 
Transportation, or AST.
    The U.S. has always been a global leader in space, in part 
because Congress has created a regulatory and policy 
environment that supports commercial space companies by 
prioritizing safety without stifling private sector innovation. 
The regulatory learning period is a great example of this.
    However, to continue our Nation's supportive policies as 
launch providers go from test to operations, it is important to 
adapt and address new issues facing the industry. For example, 
AST must have sufficient resources to successfully undertake 
its current responsibilities in an era of increased space 
launch activity and the ability to adjust its policies and 
practices to respond to industry developments.
    As the Government seeks to develop new and innovative space 
capabilities, whether for civil or defense purposes, it should 
encourage partnerships with the commercial space sector through 
firm fixed price contracts and efficient acquisition 
strategies. Above all, the Government should refrain from using 
taxpayer dollars to fund programs that directly compete with 
commercially available or emerging services and strive to 
leverage its taxpayer dollars by using commercial services 
wherever possible. NASA is already doing this in efforts such 
as the Flight Opportunities Program that purchases capacity on 
reusable suborbital vehicles for research payloads and in its 
Venture Class Launch Services program that uses small launchers 
to place cubesats in orbit.
    The Government should support policies that allow for 
domestic industry growth and increased capture of global market 
share. For example, the Government should vigorously continue 
its export control reform efforts. Domestically, Congress 
should work to ensure that disparate state laws and regulations 
do not create unanticipated barriers to innovation and growth.
    Finally, the Government should continue its longstanding 
policy forbidding the commercial use of excess ICBM assets or 
else risk a catastrophic impact on the U.S. launch industrial 
base that would undermine national security and civil space 
objectives. Since multiple new privately developed vehicles 
will be entering the marketplace over the next 2 years, there 
is no reason to change this longstanding policy.
    Our companies are dedicated to providing frequent, 
reliable, and safe transportation to space for humans and 
payloads. Our vehicles, along with other commercial space 
companies, will continue to push Earth's economics sphere 
outward. This subcommittee is helping to ensure that the U.S. 
continues to play a leading role in exploring and democratizing 
the next great frontier. We look forward to working with you on 
these and future issues.
    [The prepared statement of Mr. Whitesides follows:]

    Prepared Statement of George Whitesides, CEO, Galactic Ventures
    Chairman Cruz, Ranking Member Markey, and Members of the 
Subcommittee, thank you for giving me the opportunity to provide 
testimony for your hearing on ``Reopening the American Frontier'' I am 
here representing Virgin Orbit, Virgin Galactic, and The Spaceship 
Company. I will provide an overview of our current activities and our 
thoughts on the present and future environment for commercial space 
operations in the U.S.
    I am the CEO of Galactic Ventures and in this role, I am 
responsible for guiding all aspects of building the world's first 
commercial spaceline which includes both our human spaceflight program 
as well as our small satellite launch capability. Galactic Ventures has 
three privately-funded commercial space companies within its portfolio:

  <bullet> Virgin Galactic, which will operate a suborbital spacecraft 
        for the purpose of space tourism and research

  <bullet> The Spaceship Company, which designs, manufactures and tests 
        our suborbital human spaceflight system

  <bullet> Virgin Orbit, which is developing, and manufacturing a 
        dedicated, small launch platform for satellites which they will 
        also operate

    Three separate companies, but one shared vision for providing 
frequent, reliable and safe access to space for all. In the past few 
years, our companies have collectively grown from a handful of 
employees to providing roughly 1,000 direct jobs, and supporting 
another 1,000 indirect jobs in the aerospace sector.
    Thank you for holding this important hearing about the U.S.'s role 
in exploring the next important frontier. The U.S. has always been a 
global leader in space. In part because Congress has worked diligently 
to create a regulatory and policy environment that is supportive of 
commercial space companies. The United States is, quite literally, 
undergoing a renaissance in space science and technology. New companies 
are introducing satellites technologies that allow for increased 
capabilities in smaller, more affordable, packages. A new, globally 
competitive domestic launch industry is looking to make space 
transportation more frequent, reliable, and safe. This new marketplace 
even reaches beyond the confines of our planet and serious ideas are in 
development to better link private sector energies with the NASA 
exploration vision. This industry is not only important for our future 
in space, but it is contributing to high-tech jobs and inspiring a new 
generation of scientists, engineers, and entrepreneurs in our country 
today.
    In my written remarks, I will go over some key issues that are 
currently contributing to our leadership in space, as well as those 
that still need to be addressed such as:

  <bullet> The current regulatory environment for our industry that 
        prioritizes safety without over-reach, including:

    <ctr-circle> The continued need to regulate based on data rather 
            than analysis.

    <ctr-circle> The need for a permanent indemnification regime for 
            launch competitiveness overseas.

    <ctr-circle> Streamlining the licensing of hybrid vehicles--those 
            that include elements of both aircraft and spacecraft--and 
            their operations.

    <ctr-circle> The need for legal clarity for informed consent 
            through the requirement of cross-waivers.

  <bullet> The continued need to mature and expand our concept of 
        public private partnerships to ensure that commercial space 
        sector plays a pivotal role in both civil and national security 
        programs.

  <bullet> Continued support for Government policy that restricts the 
        use of ICBMs for commercial purposes. Allowing ICBMs into the 
        commercial marketplace will irreparably damage an emerging 
        domestic launch sector.

  <bullet> Support for the Ex-Im bank and other policies such as export 
        control reform that will keep the commercial space sector a 
        global leader in space transportation and applications.
Virgin Galactic
    Virgin Galactic is at the forefront of an important emerging market 
that is developing suborbital spaceflight experiences for humans, 
commonly referred to as ``space tourism,'' as well as for research 
payloads. Founded by Sir Richard Branson and based in Mojave, 
California, we are opening access to space to change the world for 
good. Virgin Galactic's voyages will allow people to experience true 
microgravity, and to see the Earth from space. In addition, Virgin 
Galactic will also provide access to the microgravity environment for 
research, education and other industrial applications to develop and 
test new applications.
    Based on the historic SpaceShipOne vehicle built by Scaled 
Composites--which safely carried human beings into space in 2004, 
claiming the Ansari X PRIZE and becoming the only privately-operated 
human spaceflight vehicle to do so to date--Virgin Galactic's vehicles 
have been designed with the intention of opening up frequent access to 
space while setting new standards for safety, frequency, flexibility, 
and cost. Our suborbital spaceflight system consists of two vehicles: 
WhiteKnightTwo (pictured in Figure 1 below) is a four-engine, dual-
fuselage jet aircraft capable of high-altitude heavy lift missions, 
including but not limited to fulfilling its role as a mothership for 
SpaceShipTwo (shown in Figure 2), a suborbital spaceplane designed to 
safely and routinely transport people and payloads to space and back. 
SpaceShipTwo will carry two pilots and as many as six spaceflight 
participants or about 1,000 pounds of science and technology payloads 
to space altitudes, where they will have exposure to 3-4 minutes of a 
high-quality microgravity environment.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Figure 1: WhiteKnightTwo Carrier Aircraft, VMS EVE

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   
    Figure 2: SpaceShipTwo, VSS Unity manufactured by The Spaceship 
Company

    The current SpaceShipTwo, named the VSS Unity, is currently 
undergoing flight test, and was manufactured in Mojave, California by 
Virgin Galactic's manufacturing wing, The Spaceship Company. Commercial 
operations will be based in New Mexico at Spaceport America, the 
world's first purpose-built commercial spaceport.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Figure 3: WhiteKnightTwo and SpaceShipTwo in their mated 
configuration during a test flight in March 2017
The Spaceship Company
    Virgin Galactic's manufacturing wing is The Spaceship Company, 
which is made up of an experienced team that designs, manufactures, 
tests and supports unique and innovative aerospace vehicles. They offer 
an extensive set of capabilities through the full lifecycle of high and 
unique performance vehicles through preliminary vehicle design, 
manufacturing, ground testing, propulsion, flight testing and post-
delivery support. They manufacture the fleet of SpaceShipTwos and 
WhiteKnightTwos for Virgin Galactic, and are currently flight testing 
VSS Unity.
Virgin Orbit
    In addition to human spaceflight, Virgin Galactic's sister company, 
Virgin Orbit, will provide dedicated, responsive, and affordable launch 
services for small satellites. Today, hundreds of companies around the 
world are developing small satellites for everything from 
communications to remote sensing applications. To help this small 
satellite revolution, Virgin Orbit is developing LauncherOne, a 
flexible launch service for commercial and government-built satellites. 
The LauncherOne platform is dedicated to the task of lowering the cost 
and increasing the frequency of space access for payloads in the 150 
kg-500 kg weight range.
    LauncherOne (shown in Figure 4) is a two stage, liquid propulsion 
(LOX/RP) rocket launched from a carrier aircraft. The carrier aircraft 
is a modified 747-400 (shown in Figure 5) that will carry the launch 
vehicle under the port side wing between the fuselage and inboard 
engine to the appropriate altitude before launch. Once released from 
the carrier aircraft, LauncherOne will fire its single main stage 
engine, a 73,500 lbf, LOX/RP-1 rocket engine. After stage separation, 
the single upper stage engine, a 5,000 lbf LOX/RP-1 rocket engine will 
carry the satellite (or satellites) into orbit. At the end of this 
sequence, LauncherOne will deploy our customers' satellites into their 
desired orbit.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Figure 4: LauncherOne vehicle

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Figure 5: Modified Boeing 787-400 carrying the LauncherOne rocket

    Currently, Virgin Orbit is working towards initial test flights of 
the LauncherOne system. Virgin Orbit will operate LauncherOne under a 
FAA AST license and will initially launch from Mojave Air & Space Port, 
but will eventually operate from other licensed sites.
The Regulatory Environment
    Virgin Galactic, The Spaceship Company, and Virgin Orbit are a part 
of a robust and growing domestic commercial space industry. This U.S.-
based space sector is made up of companies with private financial 
backing working on a myriad of missions from rocket launch, human 
spaceflight, satellite constellations, to beyond Low-Earth Orbit (LEO) 
operations such as asteroid mining, lunar landers, and in-space 
habitats. The commercial space industry is well underway and poised to 
continue its growth.
    The Commercial Space Launch Act as amended and re-codifed at 51 
U.S.C. Ch. 509, Sec. Sec. 50901-23, authorizes the Department of 
Transportation, and by delegations the Federal Aviation 
Administration's office of Commercial Spaceflight (AST), to oversee, 
authorize, and regulate commercial launch and reentry vehicles. FAA 
AST's regulatory authority over commercial launch and reentry is 
expansive when it comes to protecting public safety, national security 
and U.S. foreign policy interests, but is limited outside of those 
areas. This is significantly different than how the FAA regulates 
aviation activities today. However, this regulatory approach is 
necessary to encourage the emerging commercial space industry while 
prioritizing the safety of the uninvolved public. Recognizing the 
importance of these principles for the development of the commercial 
space industry, we applaud Congress for reaffirming them in the 
Commercial Space Launch Competitiveness Act of 2015.
    As we look to the future, Congress has an opportunity to build on 
the success of the Commercial Space Launch Competitiveness Act (CSLCA) 
in several areas:
The Regulatory Learning Period
    Congress has long recognized that the commercial spaceflight 
industry is too dynamic and too early in its development cycle for the 
kind of full-scale regulation that characterizes air travel. Congress 
also recognized that it is impossible for regulators to know enough 
yet, about how to regulate a group of vehicles as diverse and 
innovative as our industry is developing. The solution was to create a 
statutory regulatory learning period, during which AST may regulate for 
the safety of the uninvolved public, or in response to an incident, but 
not prospectively otherwise.
    This learning period was initially enacted in 2004 to allow the 
commercial space industry to create a sufficient database of knowledge 
on which to base future commercial space regulations. However, due to 
technical and economic challenges and industry's emphasis on safety, 
commercial space companies did not progress as quickly as was once 
envisioned. Congress correctly acknowledged that the learning period 
had not yet accomplished its intended purpose and extended the learning 
period to 2023 in the CSLCA. The learning period gives AST the 
opportunity to collaborate with industry so that both AST and industry 
better understand how to operate safely. The learning period also 
enables commercial spaceflight companies to innovate for safety more 
quickly than they could if regulations were in place. Any update of 
CSLCA should maintain the learning period.
Indemnification
    Since 1988, U.S. law has included a third-party risk-sharing regime 
for FAA-licensed commercial space launches and reentries that allows 
U.S. companies to compete more effectively with their foreign 
competitors. Passed by multiple Congresses, this ``indemnification'' 
regime requires companies to buy commercial insurance or demonstrate 
available financial resources to cover any third-party damages up to 
the Maximum Probable Loss, which is calculated by the FAA pursuant to 
Federal regulation (and which is calculated to be exceeded in only one 
in a million launches). In exchange, the Secretary of Transportation 
commits to seek funds to pay third-party claims above that level, up to 
a statutory cap--which would require another separate action by 
Congress. However, no claim to date has ever been triggered. Without 
these means of limiting catastrophic risk, both the industry and the 
Federal government would be subject to significant legal risk. The 
CSLCA extended indemnification to 2025. We encourage this Subcommittee 
to study and consider a permanent indemnification regime for the U.S. 
launch industry. The Congressional Budget Office has scored 
indemnification as no cost to the government. The government receives 
the benefit of indemnification for all claims up to the Maximum 
Probable Loss.
    The current regulatory regime should continuously adapt as the 
industry continues to grow and deploy new technologies. While we 
appreciate and applaud Congress' tremendous efforts on the CSLCA of 
2015, there are still outstanding regulatory issues facing our industry 
today--such as:
Cross-waivers
    Under the Commercial Space Launch Amendments Act (CSLAA), 
Commercial human spaceflight operators operate under an informed 
consent regime, requiring them to inform spaceflight participants of 
the inherent risks of space flight and the specific safety record of 
the vehicle type for their flight. In general, spaceflight participants 
must state in writing that they understand that the U.S. Government has 
not certified the space launch or reentry vehicle as safe and they must 
be informed of the risks of the vehicle they are boarding. Six states, 
each home to existing or proposed spaceports, have passed varying 
levels of informed consent requirements to protect vehicle operators 
from claims from spaceflight participants. All state laws exclude 
injuries sustained by spaceflight participants that are the result of 
gross negligence or intentional misconduct. While these statutes all 
require that a licensee obtain informed consent from each spaceflight 
participant, state courts have yet to discuss and interpret the 
application of this statute to their current body of law. As a result, 
it is possible that different jurisdictions will arrive at different 
interpretations of these rules.
    This lack of legal consistency between the CSLAA and local state 
law could undercut the Federal statutory mandate to promote the health 
of the commercial space transportation industry. To encourage the 
successful growth of the U.S. commercial spaceflight industry, and its 
operators, manufacturers, and suppliers, Congress should implement a 
predictable and consistent national legal environment.
Streamlining Hybrid Regulations
    Virgin Galactic and Virgin Orbit's vehicles form a hybrid launch 
system involving both an aircraft and a rocket-powered vehicle. 
WhiteKnightTwo operates under an Experimental Airworthiness Certificate 
(EAC) issued by FAA's office of Aviation Safety (AVS). When the WK2/SS2 
vehicle pair perform test flights where SS2's rocket motor is not used, 
the pair operates under an EAC. However, if the vehicle pair takes 
flight with the intention of lighting the rocket motor, they operate 
under an AST Operator's License. Virgin Galactic received its 
Operator's License for SpaceShipTwo from FAA AST in July of 2016. The 
license was the culmination of years of interaction with the AST and 
required in-depth reviews of the vehicle's system design, safety and 
flight trajectory. Both AVS and AST have tremendous expertise in their 
respective fields and in our case, have been willing to work with us to 
meet our flight test schedule. However, while looking to the future as 
more vehicles and flights come online, streamlining the regulatory 
environment for hybrid vehicles--in a manner that keeps pace with the 
industry's rapid tech advancement without overly complex procedures--
would be a welcome improvement to the current process.
Space Support Vehicles
    Operating WK2 and SS2 under the EAC for certain flight operations 
restricts use of the vehicles to flights not for-hire. WhiteKnightTwo's 
primary purpose is to enable the launch of SpaceShipTwo. However, due 
to the capabilities of WK2, there has been interest in using the 
aircraft for spaceflight participant training purposes, and for 
research payloads as WK2's ceiling is higher than most commercial 
aircraft. We are currently unable to do those types of commercial 
activities without filing for a waiver. We recommend Congress address 
the issue of the use of ``Space Support Vehicles'' for hire either 
through streamlining the licensing for these types of vehicles or 
implementing new regulatory guidelines.
AST/ATO Coordination/Commercial Space Integration into the Air Space
    We represent only two of several different commercial space launch 
vehicles operating today and while all are different, commercial space 
operations are not currently a large user of the NAS. Furthermore, 
because both their speed and their direction of flight are so different 
from aircraft, rockets and spaceplanes typically occupy the NAS for 
only a few minutes or even seconds per flight, rather than lingering or 
passing through the airspace for hours at a time. However, as the 
industry's launch cadence increases, it drives the need for efficient 
and streamlined processes for continued seamless integration into the 
airspace. For example, as part of the AST license issuance, Virgin 
Galactic coordinated with the FAA Air Traffic Organization (ATO) and 
the local Air Traffic Control (ATC) to receive Letters of Agreement 
(LOA) to define operations in the national airspace. The current 
process used to get a LOA is lengthy and requires conversations with 
multiple elements within the FAA. A much more streamlined process 
should be in place for future operations.
    The number of commercial launches has been increasing over the past 
few years and will continue to do so in the years ahead as the industry 
continues to grow. This drives the need for an efficient, defined 
process as well as technical tools, like the Space Data Integrator 
Prototype being developed by the FAA's Tech Center. The Space Data 
Integrator, when fully developed, will automate the current manual 
processes used by the FAA to monitor launch and reentry operations and 
will be able to respond to off-nominal scenarios to ensure the safety 
of the National Airspace System (NAS). Automated data flow also 
provides opportunities for more dynamic and efficient airspace 
management.
    The CSLAA built the foundation for a regulatory regime that 
protects public safety while allowing for rapid innovation and 
continuous improvements in the launch vehicle industry. The legislation 
correctly recognized that regulatory uncertainty or over-reach can 
strangle the American commercial space business. As industry continues 
to grow, the regulatory environment must allow for continuous 
improvements and innovations as well. However, to effectively do so, 
AST needs sufficient resources to support increased commercial space 
launch activity as well as incorporate next-gen technologies for ever 
increasing safety of operations. Virgin looks forward to continuing our 
work with the FAA to keep the skies ever safer while reaching new 
heights for commercial space operations.
Public Private Partnerships/Use of Commercial Services
    As the Government seeks to develop new and innovative space 
capabilities, whether for civil or defense purposes, it should 
encourage partnership with the commercial space sector through firm-
fixed price contracts and efficient acquisition strategies. The success 
of public private partnerships was recently exemplified though the 
achievement of NASA's Commercial Cargo Resupply Program. Public private 
partnerships and the use of commercial services will be key in 
furthering our space exploration program to reach new destinations.
    The Government should refrain from using taxpayer dollars to fund 
programs that directly compete with commercially available or emerging 
services. In fact, in a tight budgetary environment, the U.S. 
Government should strive to use commercial services wherever possible. 
NASA is already doing this in its programs such as the Flight 
Opportunities Program that purchases capacity on commercial reusable 
suborbital vehicles for technology development and research payloads, 
as well as its Venture Class Launch Services program that uses 
commercial small launchers to place cubesats in orbit to conduct 
research for the Science Mission Directorate in which Virgin Orbit was 
awarded a launch. This allows the government to leverage already 
invested private sector capital to meet their agency goals while 
supporting the U.S. space industrial base. We strongly support both 
programs.
    However, current acquisition processes and requirements are seen by 
the commercial space sector as contributing to increased costs, 
extended mission timelines and reduced capability due to heavy 
requirements that prefer reducing risk at all cost. The Government 
should review and revise acquisition processes for commercial services 
with an emphasis on rapid procurement of innovative capabilities for 
both civil and national security purposes.
Damaging Impact of Potential Commercial ICBM Use
    Finally, to continue the growth of U.S. domestic launch capability, 
the Government should maintain its longstanding policy forbidding the 
commercial use of excess ICBM assets. Releasing ICBMs for use as 
commercial launch vehicles would have an adverse impact on the U.S. 
launch industrial base and would undermine national security and civil 
space objectives. Since multiple, new, privately developed vehicles 
will be entering the marketplace over the next two years, there is no 
reason to change this longstanding policy.
International Competitiveness
    Financing from export credit agencies is often a critical 
competitive factor in international satellite sales and launch service 
deals. Many countries that are active in the global launch and 
satellite marketplace offer this kind of financing in some capacity. In 
2014, financing support for the space industry started becoming the 
fastest-growing sector at the Export-Import Bank of the United States 
(Ex-Im). Ex-Im helped to level the international playing field for U.S. 
companies, and the Bank's prudent lending practices have led it to 
consistently be a net positive contributor to the U.S. Treasury. 
However, since July of 2015, the Ex-Im bank has been unavailable to 
U.S. exporters due to delayed congressional reauthorization and 
currently, vacancies on the Bank's Board of Directors. International 
competitors have access to credit that U.S. companies do not without 
the Ex-Im bank, which essentially tips the playing field in favor of 
our foreign competitors to the detriment of the U.S. space industrial 
base.
    Finally, I would be remiss if I did not mention the importance that 
export control, and more importantly, export control reform, has on our 
competitiveness overseas. The commercial spaceflight industry 
recognizes the important national security interests at stake, but 
overly restrictive export control regulations can obstruct an industry 
from capturing global market share while failing to prevent 
proliferation. As technologies continue to develop and enter the 
commercial marketplace, the International Traffic in Arms Regulations 
must be reviewed and updated to adequately control the flow of 
technology and information without stifling American innovation or 
business. This includes modernizing the Missile Control Technology 
Regime regulations to accommodate 21st century space systems such as 
commercial space tourism.
    Our companies are dedicated to providing frequent, reliable, and 
safe transportation to space for humans and payloads. Our vehicles, 
along with other commercial space companies working to provide services 
in LEO and beyond will continue to push Earth's economic sphere 
outward. This Subcommittee is helping to ensure that the United States 
continues to play a leading role in exploring and democratizing the 
next great frontier. We look forward to working with you on these and 
future issues.

    The Chairman. Thank you.
    Mr. Rush.

       STATEMENT OF ANDREW RUSH, CEO, MADE IN SPACE, INC.

    Mr. Rush. Chairman Cruz, Ranking Member Markey, Ranking 
Member Nelson, and members of the Subcommittee, thank you for 
the opportunity to speak with you today.
    As CEO of Made In Space, I have the immense privilege of 
leading an incredibly passionate and talented team in pursuit 
of making the cislunar economy a reality. We want to see people 
sustainably commercially living and working in space. We're 
developing space-capable manufacturing technologies because we 
believe that manufacturing in space is a key enabler of the 
cislunar economy.
    As a young company with no outside investment, our founding 
team started with small practical steps, a philosophy we still 
apply today. By working with a variety of groups and leveraging 
infrastructure I'll be talking about in a moment, we've made 
real progress.
    After initially demonstrating 3D printing in microgravity 
via NASA's Flight Opportunities Program, Made In Space was 
granted a series of SBIR contracts allowing us to work with 
Marshall Space Flight Center to build and launch a 3D printer 
to the International Space Station. In 2014, that device 
produced the very first objects to ever be manufactured off the 
face of the planet.
    This capability is paradigm shifting, because it allows us 
to produce spares, parts, and fixes, on demand, on the spot. 
Without infrastructure like the Flight Opportunities Program, 
the SBIR program, and the International Space Station, we could 
not have developed this capability at the price that we've 
developed it at nor in a step-by-step fashion.
    We're now building on this foundation in other ways. In 
March 2016, under a user agreement with the Center for the 
Advancement of Science in Space, CASIS, our second generation 
3D printer that we own and operate was launched to the 
International Space Station. This device, called AMF, has been 
operating profitably on the International Space Station for a 
year, producing parts for a wide variety of government and 
commercial customers. In fact, the very first customer was the 
home improvement giant, Lowe's.
    Operating on the International Space Station is a crucial 
stepping stone to sustainable commercial activity in space 
because it allows for the refinement of technology and 
incubates cislunar economic business models. In late 2016, via 
a public-private partnership, a Made In Space-led team began 
work for NASA's Space Technology Mission Directorate to develop 
large-scale, in-space additive manufacturing and assembly 
technologies. We call this system Archinaut.
    Archinaut enables the optimization of spacecraft structures 
for their operational environment, for the microgravity 
environment, rather than having to primarily design them to 
survive launch. This technology enables us to build large 
structures at lower cost in space, enables the robotic 
manufacturing assembly of large reflectors, space stations, and 
other applications for civil, defense, and space customers. We 
applaud the use and expansion of public-private partnerships 
which focus on delivering capabilities which are useful to both 
the Government and the private sector.
    American free enterprise in space can also be expanded via 
manufacturing of space-enabled materials. These are materials 
which, due to being manufactured in space, have emergent 
beneficial properties for use here down on the Earth. These 
materials are produced in space and then brought back to Earth 
for sale and utilization.
    Now, on the International Space Station National Lab, Made 
In Space will soon be manufacturing ZBLAN, a space-enabled 
optical fiber which market research indicates can be profitably 
sold when launching raw materials from Earth. ZBLAN promises to 
deliver significantly better signal throughput than traditional 
fiber for telecommunications applications, a $2 billion a year 
market.
    We have self-funded the development of a pilot facility 
that we launched and operated on the ISS this year, and we 
intend to expand production further on the ISS and eventually 
move to commercial platforms in space, opening the door for the 
industrial production of thousands of kilometers of material a 
year. This would not be achievable without the infrastructure 
of the ISS National Lab and the research into ZBLAN's promise 
and properties performed by personnel at NASA Ames Research 
Center, NASA Marshall Space Flight Center, and other 
facilities.
    In closing, we at Made In Space are grateful for the 
support that we have received. We encourage continued operation 
and expansion of the infrastructure that I've just described. 
It has allowed us and other companies to develop capabilities 
in a step-by-step fashion, creating solutions for both the 
public and the private sectors. We strongly believe that in-
space manufacturing will be an anchor tenet of the cislunar 
economy and encourage this subcommittee to take steps to ensure 
that it flourishes.
    Thank you.
    [The prepared statement of Mr. Rush follows:]

      Prepared Statement of Andrew Rush, CEO, Made In Space, Inc.
Introduction
    Made In Space, Inc. (Made In Space, MIS), seeks to develop products 
and services that will enable and drive people to one day sustainably 
live and work in space. In 2014, Made In Space hardware successfully 
produced the first functional objects manufactured off the face of the 
planet. Today, Made In Space has several in-space manufacturing 
programs underway and is commercially manufacturing for customers 
aboard the International Space Station. This success would not be 
possible without the Small Business Innovation Research Program, NASA 
support, and access to the International Space Station National Lab.
    Via in-space manufacturing, Made In Space is developing the first 
factories in space which will produce high-value goods for use on 
Earth. These factories may one day be the anchor tenants of commercial 
space stations.
    Made In Space strongly encourages continued support of programs 
which enable the step-by-step development of new commercial space 
capabilities, including the SBIR program, NASA's Flight Opportunities 
Program, and the International Space Station National Lab. Made In 
Space believes that personal and intellectual property created by 
commercial enterprises in space and aboard the International Space 
Station should be owned by the commercial entity. Further, Made In 
Space encourages the creation of a transition plan to commercial space 
stations before the International Space Station is decommissioned and 
expanded support for commercial activity aboard the International Space 
Station in order to effectively foster the birth of the cislunar 
economy as NASA's activities looks deeper into space.
The Cislunar Economy Is Coming
    This is a unique time in history. Although the creation of a 
cislunar economy has long been discussed and dreamed of, sustainable, 
space-based, commercial manufacturing, tourism, and research and 
development has long been elusive. Today, sustained progress is being 
made toward this dream because the basic technological and regulatory 
framework exists to allow growth of space-based businesses.
    We are on the cusp of the next great American technological boom: 
the creation of a sustainable cislunar economy. This boom is not 
guaranteed. Investments must continue in order to properly germinate 
this boom. This boom will encompass commercial satellites leveraging 
the best technology the American semiconductor industry has to offer, 
consistent space tourism activity sending people on suborbital, 
orbital, and translunar adventures, space-based research and 
development discovering new drug and compound formulations which can be 
made on Earth, and space-based manufacturing of products for use on 
Earth which provide revolutionary capability due to being manufactured 
in the microgravity environment of space.
    Like every boom that has come before, from the smartphone 
revolution, to the Internet boom, reaching back to the booms like the 
one brought on by the discovery of oil at Oil Creek, Pennsylvania the 
mid-19th century, many approaches will be tried, to varying success. In 
the creative destruction of progress, many will try. Some will fail. 
Some will succeed. Importantly, space entrepreneurs must be allowed to 
experiment, fail in small or grand ways, succeed in small or grand 
ways, and scale their businesses as the market demands.
    Infrastructure enables and enhances economic booms. Without public 
and private investments in things like ARPANET and legislative actions 
to enable profit making via the Internet, the Internet boom would never 
have happened. Without investment, maintenance, and enhancement of the 
Global Positioning System, businesses and services like Yelp and Google 
Maps could not exist and our smartphones would be pale shadows of the 
powerful devices they are today. Going back further, without railway 
and eventually pipeline infrastructure created by public and private 
entities, transportation and refining of oil into kerosene and other 
products would have been severely constrained.
    A boom in commerce in low Earth orbit and beyond will be no 
different. This space boom will be built upon infrastructure 
investments by both the private sector and the public sector. Some of 
this infrastructure exists already. The International Space Station 
(ISS), the International Space Station National Lab, and the regular 
human and cargo missions to and from that installation enable world 
beating scientific research and development, new understanding of the 
effects of space on the human body, and provide a platform for 
pathfinding the technologies and business models that may become the 
anchor tenants of future commercial space stations.
    Crucially, the ISS allows deployment and operation of payloads to 
space at a fraction of the mass a free flying satellite would require 
to support the payload. Combined with the frequent cargo modules 
launched to the ISS, this creates an ecosystem which allows payloads to 
be flown to space and operated at a low price point and a frequency 
that is currently unattainable by the orbital launch industry. At a 
relatively low cost, this infrastructure allows commercial companies to 
develop technologies, test business models, and make profits that may 
one day support sustainable operations in commercial space stations or 
free flying satellites, where the full promise of sustainable 
commercial space industry will be realized and billions in revenues 
will be generated.
    The ISS allows development, testing, and deployment of pilot 
commercial facilities for investments on the order of millions of 
dollars, amounts of money that can be realistically attained through 
private investment or public sources, such as the Small Business 
Innovation Research program. Without this infrastructure, such 
development and deployment would cost a hundred million dollars or 
more; an amount of money which is rarely invested in unproven space 
technologies by either the private or public sector.
    Like the ISS and the ISS National Lab, other infrastructure 
supports the gradual, step-by-step transition of technologies which 
will enable a space-based economic boom from the drawing board to full 
scale operation in space. The increasing availability of parabolic 
aircraft flights and suborbital rocket flights provides very low cost 
to no cost testing of technologies in short bursts of microgravity 
ranging from twenty seconds to several minutes. This enables low-cost 
prototypes to be tested in their intended operational environment, 
without the enormous expense of orbital launch. NASA's Flight 
Opportunities Program has long provided these flights to researchers 
and entrepreneurial companies, laying the groundwork for government and 
commercial payloads that have now been deployed to space.
    On the operational end of the spectrum, we at Made In Space are 
ecstatic to see plans from commercial space station providers coming 
together to deploy modules to space within the next five years. 
Similarly, orbital launch providers bringing new, lower cost and 
reusable launch vehicles to market is a landmark achievement for 
commercial access to space. The combination of the ISS and future 
commercial space stations and frequent low-cost commercial launch gives 
companies at the forefront of the forthcoming commercial space boom 
somewhere to operate and a way to get there. Without somewhere to 
operate and a predictable way of getting there, operations are not 
possible and expansion of American free enterprise in space is stifled.
Made In Space, Inc. And The Emerging Cislunar Economy
    Made In Space, Inc. (Made In Space, MIS) is a small business with 
offices in California, Florida, Alabama, and Ohio.
    Made In Space was founded in 2010 with the goal of enabling people 
to sustainably live and work in space.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 1. ISS Commander Barry ``Butch'' Wilmore holding a 3D 
printed ratchet manufactured in space. The ratchet was designed on the 
ground and manufactured in space one week later, making it potentially 
the fastest delivery to space ever. Image credit: NASA

    This goal is shared by many in the space industry who believe in 
the economic promise the final frontier holds. Companies like SpaceX 
and Blue Origin are focused on building low cost launch vehicles, 21st 
century versions of the covered wagon. We at Made In Space are focused 
on developing the tools and manufacturing facilities that will fill 
those wagons to the stars, enabling a sustainable cislunar economy.
    We focus on two types of space-based manufacturing: manufacturing 
technologies that enable new missions in space; and manufacturing 
technologies which leverage the space environment to create high value 
goods for use on Earth. Both are crucial enabling technologies for the 
cislunar economy which will utilize the above described infrastructure 
and one day generate revenues sufficient to profitably sustain 
commercial orbital launches and space stations.
    Made In Space has no outside investors and has been profitable 
since its inception. Currently, Made In Space has approximately forty 
employees, including several who began their careers in the aerospace 
industry via internships funded by the NASA Space Grant and Fellowship 
Program.
Manufacturing In Space For Use In Space
    Utilizing multiple pieces of the space infrastructure described 
above to open up new sources of space-based revenue, Made In Space 
engineers initially internally funded a prototype gravity-independent 
3D printer. Through a grant from the NASA Flight Opportunities Program, 
that prototype was tested and successfully operated on board a 
parabolic flight aircraft in 2011. Building on this demonstration of 
viability, Made In Space was awarded SBIR contracts to develop the 
technology for demonstration aboard the ISS. Via an SBIR Phase III 
contract with NASA run out of the In-Space Manufacturing group at NASA 
Marshall Space Flight Center, Made In Space built and operated the 
first 3D printer to operate in space. In late 2014, via the 3D Printing 
In Zero-G Technology Demonstration experiment, this space-capable 3D 
printer was installed on the ISS and manufactured the first functional 
objects ever made off the planet Earth by humanity (see Figure 1).
    Building on this initial on-orbit success, Made In Space built the 
Additive Manufacturing Facility (AMF, see Figure 2), a second-
generation more capable 3D printer. The AMF was launched to the ISS in 
March 2016. Via agreements with NASA and the Center for the Advancement 
of Science In Space (CASIS), the managers of the ISS National Lab, Made 
In Space owns and operates the AMF, routinely sending print jobs to the 
ISS and manufacturing them on a weekly basis. The AMF print services 
business is profitable and has produced parts for NASA, the U.S. Navy, 
Lowe's, universities such as Texas A&M University, student groups, and 
even individuals. Parts manufactured include space optimized 
structures, hand tools for the ISS crew, prototype medical splints and 
ventilators, and adaptors for ISS equipment.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 2. The Additive Manufacturing Facility (left) is the first 
ever commercial manufacturing facility deployed to space. A wide 
variety of customers have been served, including Lowe's who designed 
the first print on this facility, a space optimized hand tool (right). 
Image credits: NASA/Made In Space.

    The capability to manufacture parts on demand during a space 
mission is paradigm shifting. 3D printing serves as a fast and 
inexpensive way to manufacture parts on-site and on-demand, reducing 
the need for costly spares on the ISS and other spacecraft. Long-term 
missions would benefit greatly from having onboard manufacturing 
capabilities. New parts may be manufactured to enable new scientific 
experiments or augment existing ones.
    Further building on this success and internal research and 
development into manufacturing very large, space-optimized structures 
in space, Made In Space became a ``Tipping Point'' selectee by NASA's 
Space Technology Mission Directorate. Under a contract begun in late 
2016, Made In Space is leading a team including Northrop Grumman and 
Oceaneering Space Systems to develop its Archinaut in-space 
manufacturing and assembly technology. During rocket launch, spacecraft 
are subjected to high g forces and large vibrational forces. Further, 
the entire spacecraft must fit within the limited volume of the launch 
fairing. Surviving this launch environment requires wasting mass to 
over engineer components to survive launch and engineering deployables 
which unfurl once the satellite reaches orbit, creating points of 
failure. Archinaut technology will enable optimization of spacecraft 
structures for their operational environment, rather than launch. 
Additionally, repair and reconfiguration of assets once they are on 
orbit will be possible. Further, this technology enables providing 
large structures at lower cost and enabling robotic manufacture and 
assembly of large reflectors, space stations, and other applications 
for civil, defense, and commercial space customers. Before operating in 
space, this technology will initially be demonstrated in NASA 
environmental testing facilities and aboard ISS via AMF, including 
manufacturing space-optimized structures in space.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 3. This artist's rendering depicts the Archinaut payload 
during its deployment in space. Via additive manufacturing and 
assembly, a large reflector is manufactured and integrated over time. 
Image credit: Made In Space

    The Archinaut Development Program is a private-public partnership 
designed to develop a technological capability that is useful to both 
government and commercial customers. As part of its effort, the Made In 
Space-led team is contributing over 25 percent of the program cost. 
Made In Space believes that space technologies should be developed into 
products which are useful and sold to both government and commercial 
space customers. This expands their utilization and lowers costs for 
all customers.
Manufacturing Space Enabled Products
    Space-enabled products are materials and products which are 
manufactured and/or processed in space which, due to being manufactured 
and/or processed in space, have beneficial properties. Because of 
space's unique properties like microgravity, in-space manufacturing 
enables the creation of new materials and products which cannot be 
duplicated via Earth-based manufacturing.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Figure 4. Made In Space will deploy a payload to ISS this year to 
manufacture high value optical fiber in space. Image credit: Made In 
Space

    Some products have been well researched via government funding and 
determined to provide significant performance improvements when 
manufactured in space. For example, research indicates that space-
manufactured ZBLAN optical fiber has ten to one hundred times better 
signal loss compared to traditional silica optical fiber. Due to this 
dramatic performance improvement, some government and private analyses 
estimate that space-produced ZBLAN optical fiber could generate over a 
billion dollars a year in revenue. Commercial manufacturing of ZBLAN in 
space would also represent the first industrial use of space, a key 
enabler of the cislunar economy.
    Because of its unique expertise in microgravity manufacturing and 
the market potential of ZBLAN, Made In Space has privately funded the 
development and deployment of a ZBLAN manufacturing facility. Via an 
agreement with CASIS, this facility will be flown to the ISS this year, 
produce optical fiber there, and then be returned to Earth where the 
fiber will be characterized and delivered to customers. Made In Space 
plans to scale in-space production of ZBLAN quickly aboard the ISS with 
the ultimate goal to produce thousands of kilometers of ZBLAN optical 
fiber a year in space on a commercially provided platform.
    Made In Space is taking a step-by-step approach with this program, 
leveraging government research, the ISS, and its own profits to deliver 
a commercial in-space manufacturing capability. The promise of in-space 
manufacturing is not limited to optical glasses. Government and private 
research indicates that many other products and materials can benefit 
from in-space manufacturing and close the business case at current 
launch costs or launch costs achievable in the medium term, making 
manufacturing of space-enabled products a potential anchor tenant of 
future commercial space stations in the cislunar economy and adding new 
launches to the industry.
Conclusion
    Made In Space has benefited enormously from a virtuous cycle of 
technology development and operation enabled by the Small Business 
Administration, NASA, and CASIS. Made In Space is grateful to all those 
that have helped along the way and proud to continue working with NASA 
and other government agencies. The step-by-step technology development 
path that currently flows from lab development to parabolic flights 
through the ISS National Lab and eventually to commercial platforms in 
space has been critical to Made In Space's success. Made In Space 
strongly encourages continued support of the elements of this path as 
well as support and expansion of commercial enterprise aboard the ISS 
so that the cislunar economy is well positioned to blossom before the 
ISS is decommissioned. By actively supporting the growing commercial 
cislunar economy through the end of the ISS's life and supporting the 
creation of commercial platforms in LEO, the United States can expand 
its supremacy in space.

    The Chairman. Thank you, Mr. Rush, and thank you to each of 
the witnesses for your very helpful testimony. We'll now move 
to the question portion of the hearing, and let me start out 
with this.
    As Congress looks to build upon the Commercial Space Launch 
Competitiveness Act, what are the regulations that are most 
impacting your companies that need to be addressed by Congress 
or processes that can be streamlined to facilitate or 
accelerate the exploration of space?
    Mr. Meyerson. If I could start, as I stated in my oral and 
also in my written testimony, we think the designation of FAA 
as the sole lead agency for licensing commercial space 
launches, independent of the location of the range, is the 
single most thing that, as a launch operator, we would like to 
see to streamline space regulation.
    Mr. Whitesides. Senator, two suggestions from Virgin's 
perspective. On indemnification, since 1988, U.S. law has 
included a third-party risk sharing regime for FAA licensed 
commercial space launches and re-entries that allows U.S. 
companies to compete more effectively with their foreign 
competitors. Without this means of limiting catastrophic risks, 
both the industry and the Federal Government would be subject 
to significant legal risk. The CSLCA extended indemnification 
to 2025. We encourage this subcommittee to study and consider a 
permanent indemnification regime for the U.S. launch industry.
    And if I could add one more, in terms of streamlining 
hybrid regulations, Virgin Galactic and Virgin Orbit's vehicles 
form a hybrid launch system involving both an aircraft and a 
space vehicle. Both AVS and AST within FAA have tremendous 
expertise in their respective fields and, in our case, have 
been willing to work with us to meet our flight test schedule. 
In the future, as more vehicles and flights come online, 
streamlining the regulatory environment for hybrid vehicles 
would be a welcome improvement to the current process.
    Mr. Bigelow. I'd like to suggest that staying with Space 
Act Agreements is a significant step forward as opposed to the 
far type of structure of contracting. We have used them with 
NASA, and they are expeditious. They are agile. They do not 
involve a lot of red tape. So to us, the Space Act Agreements 
should be maintained as a principal method of contracting 
between the commercial sector and the Government sector.
    Mr. Rush. As a company that operates in space, we would 
like to see a few things: An affirmation that intellectual 
property that's developed in space by companies operating in 
space, whether that be within a government facility or without, 
be retained wholly by the company that creates that 
intellectual property. Further, as a company that is seeking to 
manufacture goods on U.S. spacecraft and on U.S. modules, we 
would like to see those modules and spacecraft continue to be 
treated as U.S. soil, so that one day, when we're manufacturing 
a wide variety of high-value goods in space and bringing them 
back, there's no question that they're not subject to any sort 
of import or customs tax.
    Further, in the more near term, simplifying the process for 
getting payloads to the ISS and operating those payloads there 
is something I think that all operators would like to see.
    The Chairman. Well, thank you. Those are all helpful 
suggestions, and I'll note, Mr. Rush, on your last point, I 
certainly hope we would not trigger reciprocal tariffs from 
Mars. That would be a real problem.
    Senator Nelson. Nor a border adjustment tax.
    [Laughter.]
    The Chairman. Mr. Meyerson, Blue Origin and SpaceX are both 
making terrific strides in changing human spaceflight and 
lowering the price of access through the use of reusable 
rockets, a notion that not too long ago would have been almost 
unthinkable. What's the difference in the licensing 
requirements set by the Air Force and set by the FAA's Office 
of Commercial Space Transportation, and when it comes to using 
a reusable rocket compared to an expendable rocket?
    Mr. Meyerson. So the reusable licensing machine has not 
been utilized yet, so it's a relatively new regime within the 
FAA, and that's one that we're now exploring with our New 
Shepard and our New Glenn vehicles. The current regime 
requires--when you fly a commercial vehicle off a Federal 
range, it has both FAA and Air Force involvement. So you're 
providing the same types of documents--safety analyses, hazard 
analyses reports--but in different formats to different 
agencies, and that is what I referred to earlier as duplicative 
and we think it's unnecessary.
    The Chairman. One additional question, Mr. Bigelow. If 
Bigelow Aerospace sought to place a Bigelow habitat either on 
the surface of the Moon or in orbit around the Moon as a lunar 
depot, are there any significant regulatory barriers to doing 
so, and does the U.S. Government have a workable framework in 
place to enable and support commercial space activities in 
space and on and around planetary bodies?
    Mr. Bigelow. We don't believe so. We think that it's 
consistent within the framework of the 1967 Space Treaty. We 
also think that as a partner in the context of a commercial-
government partnership with NASA, we would be mutually aware 
that we had to follow prescriptions of behavior to invoke 
safety where it would be necessary. We have considered this 
type of activity for some years, deploying structures on the 
surface of the Moon. We have architectures that address that, 
and is the same with orbiting depots.
    The Chairman. Thank you.
    Senator Markey.
    Senator Markey. Thank you, Mr. Chairman.
    Mr. Bigelow, what role do you see public-private 
partnerships filling in regards to maintaining a national 
laboratory in space?
    Mr. Bigelow. I don't see it as a zero sum game. I don't see 
it as a choice of either/or. If I were in a position of 
decision for NASA, I would say I want both. I would want to 
harmoniously blend the obtaining of commercial assets under 
affordable circumstances and reliable circumstances and be 
accustomed to their operation, acclimate my own astronaut corps 
to those facilities, those platforms, concurrent with the 
operation of the ISS.
    And then at the time that the ISS is eventually 
repositioned or reassigned other missions may be involving 
commercial uses, or not, then I would already have platforms in 
place in low Earth orbit where at the same time that those are 
being positioned, I would be able to increase the size of my 
astronaut corps. I would increase the size of the population of 
Johnson Space Center, because now there isn't just one platform 
to monitor and to operate. There could be three or four or 
five, and the advantage with the commercial sector is that 
those platforms, the ones that would be added, would be at a 
small fraction of the cost of the original station.
    Senator Markey. Thank you.
    Mr. Meyerson, Russia, India, China, United Arab Emirate, 
Saudi Arabia--there can be a lot of traffic up there as each 
year goes by. How would you suggest that we work together in 
order to ensure that there are common minimal safety standards 
that are established and adhered to globally?
    Mr. Meyerson. Well, I think the FAA is currently doing a 
very good job of developing those standards. What we need as 
space gets global--we need more launch capacity. So with the 
long-term vision of millions of people living and working in 
space, it's going to be not just Americans, but it's going to 
be people throughout the world that are living and working in 
space, and we'll need launch capacity to do that. So what I'm 
suggesting and urging is a very streamlined process for doing 
that so that different companies in different countries can 
demonstrate their capabilities in that approach.
    Senator Markey. And what would be, from your perspective, 
the correct mechanism to use in order to ensure that there is a 
minimal international safety standard?
    Mr. Meyerson. You know, I'd be happy to provide an answer 
to that one on the record. I'm not really prepared to answer 
that question. It's a complex question.
    Senator Markey. That's fine. We would appreciate it.
    Anyone on the panel have any suggestions?
    Mr. Bigelow. Well, I think, initially, the philosophy is 
less regulation is better while maintaining the context of 
common sense and safety and organization. So we have--two or 
three years ago, we were working with George Nield and FAA AST 
to acquire a policy change within the FAA AST, and that was 
achieved, where our company was used sort of, more or less, as 
a guinea pig, where launches would not be sanctioned from U.S. 
territory to be vectoring a payload to a location on the 
surface of the Moon where Bigelow Aerospace had some kind of 
activity ongoing, and that was a policy change.
    The next step from that is to--in addition to that would be 
probably to prescribe a standoff distance, because that was 
mute, as to--if there were some kind of miscalculation in the 
delivery of that payload, what is a logical standoff distance 
of safety? Would it be 300 kilometers, 250 miles, whatever, as 
a radius so that you have geographic protection.
    Senator Markey. Thank you. And maybe I'll just throw this 
out for anyone who wants to take it. What is the role of the 
Air Force going forward? Do you see that ultimately being 
phased out, and the private sector will just be in charge of 
its own responsibilities? Can any of you take that as a 
question?
    Mr. Bigelow. We would like to see a Space Command have a 
presence in space. We would like to actually see that those 
kinds of assets are accessed earlier than later. We think that 
the Naval Research Laboratory or the Air Force Research 
Laboratory could use those kinds of locations for unique 
laboratory purposes.
    Mr. Meyerson. I'd like to add the urging is on FAA 
regulation of commercial launches. The Air Force, of course, 
has their own missions that are of a national security nature 
and would require a different type of oversight, and that is 
absolutely necessary and essential, and we'd see that 
continuing.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Nelson.
    Senator Nelson. I was fascinated, Mr. Rush, in you telling 
about using a 3D printer to create a new, more pure fiber optic 
cable and because of the properties of Zero-G. It would be so 
pure that it becomes economical to manufacture it in space and 
take it back to Earth because it can convey so much more 
information so rapidly. Is that correct?
    Mr. Rush. That is correct, Senator.
    Senator Nelson. Well, so how can we improve the ISS as an 
incubator to help enterprises such as yours, and do you see 
that it needs to be extended beyond the existing life, which is 
2024?
    Mr. Rush. I believe that similarly amazing strides have 
been taken to let folks like us operate on the ISS, period, and 
pursue these things. You know, really, having the framework of 
the ISS National Lab gives us access to that in a way that, you 
know, I can build a pilot factory that's maybe 50 kilograms and 
get that up and operate it, where, if absent that facility, I 
would be buying a ride from some of these fine gentlemen's 
companies at, you know, orders of magnitude, greater costs, 
which for a commercial entity might not be possible.
    As we move forward, I would recommend that the ISS National 
Lab and the folks that support that entity more fully embrace 
commercial pathfinding on the ISS and commercial profitmaking 
on there, because the ultimate goal is for companies like us to 
transition to commercial platforms, like Mr. Bigelow's 
facilities. But we can't jump from, you know, making a little 
bit of money or no money to paying for a significant portion of 
his module or anybody's facility because the math just doesn't 
quite solve. So we need a step-wise transition to laws to 
expand operations, first on ISS and then perhaps next on a 
commercial module attached to ISS, and then ultimately to a 
free flyer.
    We would strongly recommend that a transition plan be 
created that is committed to a continuous presence in low Earth 
orbit for persistent microgravity platforms, which likely looks 
like supporting a commercial space station being created and 
put up in space while the ISS is still there, whether that's by 
2024 or beyond.
    Senator Nelson. So that fits very nicely with what Mr. 
Bigelow testified about. Now, you are a small group of folks 
that started this startup. You got a NASA space grant. So do 
you want to tell us in 45 seconds, no more, how important it is 
for NASA to invest in young scientists and engineers in your 
example?
    Mr. Rush. Absolutely, yes. I got my very first job in the 
industry via a NASA space grant. A couple of the co-founders of 
our company have similar experiences, as well as a lot of the 
guys that we employ, including new interns that are working for 
us. Just as NASA invests in technology from, you know, a low 
Technology Readiness Level and eventually brings it into 
operational capabilities, we need to do that with people as 
well, and I'm proud to be one of those people and to employ 
people like that.
    Senator Nelson. I want Mr. Whitesides and Mr. Meyerson to 
be contemplating the need to streamline the regulatory process 
for the growing commercial launch industry. Already, we had a 
major step forward that a lot of people don't realize. The 
destruct system that previously was always done by the Air 
Force with an Air Force lieutenant sitting there with his 
finger on the destruct button in case it started going off 
course and headed to a populated place--has on some of the 
commercial activities and launches been replaced with an 
autonomous flight safety system which allows the turnaround for 
rocket launches to be much greater.
    SpaceX, for example, told me in a few years, they expect to 
be--just SpaceX--launching 40 launches a year just from the 
Cape, additional ones from Brownsville, and additional ones 
from Vandenberg that need to go into polar orbit. But the 
biggest bulk of them, 40--that's quite an activity when you add 
all the others in. So I want you all to be thinking and give to 
us how that regulatory process, particularly with the FAA, can 
be improved?
    [The information referred to follows:]

                               Space Law & Policy Solutions
                                      Rochester, NH, April 21, 2017

Senator Ted Cruz (R-TX), Chairman, Senator Edward J. Markey (D-MA), 
            Ranking Member and Members of Space, Science and 
            Competitiveness Subcommittee

Re: Reducing Regulatory Barriers and Expanding American Free Enterprise 
            in Space

Senator Cruz, Senator Markey and Members of the Subcommittee:

    My name is Michael J. Listner, and I am an attorney licensed to 
practice law in and before the state and Federal courts of the State of 
New Hampshire. I am also the Founder and Principal of the legal and 
policy consultation firm, Space Law and Policy Solutions and the editor 
of the space law and policy briefing-letter The Precis.
    On July 4, 1982, President Reagan steered the United States on a 
path to permit private actors to perform activities in outer space per 
his executive order found in National Security Decision Directive 
Number 42 (NSDD-42). Congress subsequently supplemented the leanings of 
President Reagan and passed the Commercial Space Launch Act of 1982 
(Public Law 98-575), which created a private interest for non-
governmental actors to perform outer space activities pursuant to 
licensing and regulation through the Department of Transportation.
    The implementation of both NSDD-42 and Public Law 98-575 has been 
followed by successive Administrations and Congress who have laid out 
further directives both through superseding executive orders most 
recently in PPD-42 and legislation amending Public 98-575 most recently 
with the Commercial Space Launch Competitiveness Act of 2015 (Public 
Law 114-90). These directives and legislation have the effect of 
directing agencies of the United States Government to encourage the 
development of commercial space activities as opposed to strictly 
government space activities.
    The direct result of these initiatives is the creation of a new 
economic sector that has vast potential. The realm of commercial space 
is found most prolifically in new commercial space launch companies who 
not only provide launch services for commercial satellites but also 
national security and eventual crewed missions to the International 
Space Station. There has also been an upsurge of companies offering the 
promise of a gambit of outer space activities from sub-orbital and 
orbital tourism and even harvesting of space resources from celestial 
bodies like the Moon and asteroids. In each of these cases, the 
Executive Branch and Congress have created or need to create a 
conducive legal and regulatory environment to facilitate these 
activities.
    The call to reduce regulations from the commercial space industry 
is a consistent one and the focus of this Subcommittee's hearing. 
Indeed, regulatory and licensing requirements are a stepping stone for 
private actors to bring their commercial activities to fruition but 
also represent an actual expense and time impediment to these proposed 
activities. However, the answer to the industry's call does not lie in 
completely deregulating the commercial space industry.
    The United States has ongoing legal obligations to the 
international community through treaty commitments, including the Outer 
Space Treaty, which among other obligations requires the government to 
``authorize'' and ``continually supervise'' the activities of non-
governmental entities. These international legal obligations, while 
imputed to the United States government, are executed and exercised by 
the Commercial Space Launch Act of 1984 and successive commercial space 
laws passed by Congress and signed into law by the Executive Branch. 
Regulation in some form is necessary for the commercial space industry 
if not only to meet the United States' international legal obligations 
under treaties like the Outer Space Treaty, then to address national 
security and public safety. That said, regulation need not be 
prescriptive in nature but could take the form of performance-based 
regulations or has been proposed to take the form of self-regulation by 
the industry itself.
    Ancillary to the issue of regulation is the extent to which private 
space activities will begin to move beyond the bounds of what was 
foreseen under the current body of international space law. Issues like 
real property rights for private actors in particular is one that is 
coming to the forefront, yet the current state of international space 
law does not provide for it. Indeed, issues like real property rights 
raises the temptation to make interpretations of international space 
law that might form a favorable customary interpretation to benefit 
commercial space activities. Considering the ability of the United 
States to create customary international law and binding 
interpretations through its actions as a state, this Committee would be 
prudent to consider not only the immediate effect of adopting 
interpretations of the Outer Space Treaty that may be outside the 
province of current international space law but the long term effects 
of those interpretations as well.
    That said, the time may come where the Outer Space Treaty itself 
may become an impediment to developing and exploiting outer space. At 
this point, it may be necessary to review the United States' 
participation in this foundational Treaty and take steps to withdraw 
and refashion outer space law to be more responsive to the needs of 
commercial space actors. This type of consideration is not to be taken 
lightly and the consequences must be fully examined if it is decided to 
do so at some future point.
    In conclusion, I respectfully request this Committee consider the 
gravity of international treaty obligations when it discusses the 
future regulatory environment of the commercial space industry. 
Regulation of the commercial industry need not be non-existent or 
overly burdensome but rather it is plausible to strike a proper balance 
that encourages the expansion of commercial space activities and 
satisfies the legal obligations of the United States.
            Respectively submitted,
                                        Michael J. Listner.

cc: Senator John Thune (R-SD), Chair, Senate Committee on Commerce, 
Science, and Transportation

    Senator Nelson. I would say, in closing, Mr. Chairman, 
that, shortly, we expect the Vice President to be announced as 
the head of a re-established Space Council in the White House. 
I think this is a good step, and I think it will allow us, as 
Members of Congress, to work much more easily with a group that 
is dedicated to focus on the space program, and that will, I 
think, improve the lines of communication considerably.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Nelson.
    Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Cruz, very much.
    And thank you to this excellent panel for your insightful 
testimony here today, and Chairman Cruz for focusing in on this 
subject.
    Last Saturday was Earth Day, and the first March for 
Science took place across the country--I was in Santa Fe at one 
of the 600 marches across the globe--to highlight the 
importance of scientific research at a time when many 
scientists, and especially climate scientists, believe they are 
under attack from the Trump administration. American leadership 
in science put a man on the Moon. This committee has a 
responsibility to stand up for science, to stand with 
researchers and innovators who keep America at the cutting edge 
of science and technology.
    The commercial space industry, I think, is a great example 
here. Suborbital spaceflight from Spaceport America in my home 
state of New Mexico will soon be a reality. George, you 
mentioned that in your opening statement. Commercial space 
companies are aiming for the stars, and this committee has an 
important role to help them reach this new frontier, as 
emphasized by the questions before me.
    Mr. Whitesides, many New Mexicans hope to see full 
commercial spaceflight operations begin as soon as possible. 
Sir Richard Branson said that he would be very disappointed if 
Virgin Galactic's commercial service is not well underway by 
the end of next year. Is that a realistic timeline?
    Mr. Whitesides. It is, Senator, yes. We're well into test 
flight now, and we're looking forward to moving a fairly big 
transition of our staff to your state of New Mexico.
    Senator Udall. That's great, and as you know, New Mexico 
has invested, I think, $200 million in that Spaceport. So we 
want to see you be a success there.
    Mr. Rush, I was pleased to read in your statement about how 
Made In Space took advantage of NASA's Flight Opportunities 
Program to test a 3D printer on a low-cost suborbital flight, 
and I think Senator Nelson talked about that. This is exactly 
the kind of low-cost, high-impact success story I envisioned 
when fighting to authorize the Flight Opportunities Program in 
the 2009 NASA bill. Flight Opportunities costs less than one-
one thousandths of the NASA budget, and I believe it delivers a 
big bang for the buck.
    Mr. Rush and Mr. Whitesides, do you support funding for the 
NASA Flight Opportunities Program?
    Mr. Rush. Yes, absolutely. The Flight Opportunities Program 
is an integral portion of our technology development process, 
that we're able to take low-cost prototypes and expose them to 
microgravity and see if they work before we make more 
investments in that to put them into orbit.
    Mr. Whitesides. Senator, I think it fits well with the 
ecosystem. Testing out space technologies in suborbital or 
other platforms and then moving those to the International 
Space Station and beyond is a terrific investment and allows 
great companies like Made In Space and others to prosper and 
grow. So we think it's a really exciting area for our American 
researchers.
    Senator Udall. Good. Thank you.
    Mr. Meyerson. If I may add, Senator----
    Senator Udall. Yes, please, Mr. Meyerson.
    Mr. Meyerson. Our New Shepard system which has been 
flying--we've already flown payloads at our own expense on the 
New Shepard rocket over the last year and are part of the 
Flight Opportunities Program. We support it. We think it's a 
great opportunity to get our students from K-12 all the way up 
to our scientists in national labs using space weightlessness 
as a science platform and demonstrating new things. So we're 
very excited about it.
    Senator Udall. Great. Thank you.
    Mr. Bigelow, do you have a comment on that?
    Mr. Bigelow. Well, all of these activities are building 
blocks. They're all part of the entire mosaic that we're all 
trying to achieve. So I approve and applaud all these kinds of 
efforts.
    Senator Udall. Great.
    Mr. Whitesides, your written testimony notes that Virgin 
Galactic worked extensively with the FAA's Office of Commercial 
Space Transportation when getting an operator's license for 
SpaceShipTwo. Given the growth in the commercial spaceflight 
industry, do you expect the resource needs for the FAA AST 
office to grow as more and more commercial companies develop 
and launch space vehicles?
    Mr. Whitesides. I do, Senator. The reality is that the AST 
is a very small fraction right now of the FAA's budget, and if 
you look to the horizon, all these exciting increases in volume 
is going to drive significant resource demands inside AST. I 
think relatively small increases from the perspective of the 
Federal budget would drive huge results in terms of enabling 
companies like ours, like Rob's, and others to quickly get to 
the operating line and moving out. So we really think--you 
know, it may be rare for companies to be pushing more funding 
for their regulators, but we really think that this is a case 
where it could be a good investment for the country.
    Senator Udall. Great. Thank you so much. We look forward to 
working with you.
    Thank you, Chairman Cruz.
    The Chairman. Thank you, Senator Udall.
    Let's shift to a different aspect to focus on, which is, as 
we discussed earlier in the hearing, the United Nations Outer 
Space Treaty was enacted 50 years ago in 1967. How relevant is 
that Treaty today, and how do you see it impacting commercial 
operations for your company and others in space?
    Mr. Bigelow. I think the Treaty needs to be updated. I 
think there are aspects of that Treaty that should always be 
maintained, such as the prevention of nuclear weaponry in low 
Earth orbit or other remote places on foreign bodies or in deep 
space, whatever. But I think that that Treaty was cast in a 
time-frame where the United States and Russia didn't know who 
was going to be reaching the Moon first. There were concerns 
about proprietary possession, ownership of different--perhaps 
of that asset of the Moon. So the philosophy was different than 
today.
    It was un-thought of at that time, I'm assuming, that 
commercial folks would have the wherewithal or the audacity to 
be thinking about traveling to the Moon and conducting business 
there. So I think it needs to be updated. I don't think that 
the updates are inconsistent with most of the language provided 
in the Treaty today.
    The Treaty definitely provides for bases to be positioned 
by sovereign entities, to allow those sovereign entities to 
populate those bases with military personnel. The Treaty is 
mute on any reference to the size of those bases territorially. 
There are no geographic constrictions. There is no mention of 
the number of bases that you may have. So it's wide open, as we 
know. Not to pick on China, but the fact is that the Chinese 
Red Army controls their space program.
    Now, I think that through the FAA AST efforts on 
sanctioning--or being aware not to sanction launches that could 
interfere with--payloads that could interfere if they were 
misdirected into somebody's activity on the surface is a start. 
I think there needs to be a geographic expansion or definition 
of what is that isolation standoff distance. What should that 
be? It's possible that you could extend that to a patented 
mining opportunity to define the area in which cadastrals and 
monuments could be established as they have been for a great 
length of time here in this country and around the world.
    It's very difficult to not want that if you're a company 
that is promoting mining. You're going to spend large amounts 
of money, risk people's lives, and you don't have some security 
of a geographical definition. You're not asking for ownership 
of the property, but ownership of what you extract in situ from 
that area.
    So I think this is not inconsistent. The 1967 Treaty 
provides for--that each signatory to that Treaty needs to 
prepare methods of their own within each country of how they 
are going to behave to carry out the spirit of that Treaty, 
which is that all foreign bodies should be used in the interest 
of the common welfare of mankind. That doesn't exclude free 
enterprise by any means. Free enterprise hallmark is--free 
enterprise succeeds the best when it serves the public in the 
greatest way possible. So free enterprise is definitely 
consistent with serving mankind.
    So I don't see any kind of discontinuity. The Treaty 
provides for these kinds of things because it leaves it up to 
sovereign countries to make these decisions, but it also could 
be updated. The risk of that is trying to get a consensus where 
you would actually be able to get a large population of 
countries to agree, I think.
    The Chairman. Are there any specific updates to the Treaty 
that you think are necessary?
    Mr. Bigelow. I think good fences make good neighbors. I 
think that there needs to be some language that for the common 
good of mankind that activities are going to be exercised on 
the Moon, that there needs to be some specificity to conducting 
an operation under some geographic definition. And, again, as I 
said, the location of bases is permitted. There is no language 
as to how many or the size of those bases. One base could be 
the size of Texas, because there is nothing in that Treaty that 
says it couldn't be.
    The Chairman. Now, you mentioned China in your testimony, 
and earlier this morning, you and I were visiting about a 
number of issues, including China. Could you share with this 
committee your concerns about China's lunar ambitions?
    Mr. Bigelow. I have a great respect for any company, any 
country, any people that achieve great things, and China falls 
into that category very much. So I respect China a great deal. 
I also have--I believe I have an understanding that's correct 
that China is very predisposed to ownership. Whether it's 
creating the islands in the South China Sea, whether it's 
properties in massive quantities that they purchased in South 
America or Africa, other places, whether you open a company and 
can only own 49 percent of it, they are very ownership minded. 
I think that that logically is possible to be extended in that 
philosophy to the Moon.
    So I can see a scenario that's not unrealistic to me that 
China could exercise an effort to start to lay claim to certain 
lunar territories. They could do it the old fashioned way, by 
using lasers to mark the points, put down cadastrals and 
monuments, and, over time, acquire a very large amount of 
territory that might be in the select areas where there's 
constant sunlight and those kinds of things, you know, in terms 
of location, location, location on the Moon.
    So I don't think it's a joke. I don't think it's something 
to be cavalier about. I think such an ownership consequence 
would have an amazing impact on the image of China, vis-a-vis 
the United States and the rest of the world, if they should own 
large amounts of territory on that body, and we stood back and 
we weren't prepared. So it's a concept that I think deserves 
thinking about.
    The Chairman. Do others on the panel share the concerns 
about China's ambitions? And I want to expand the question also 
to include the potential military threat of China in space, 
taking out space assets, potentially.
    Mr. Rush. I would say with respect to Chinese ambitions, 
you know, more folks launching into space and conducting space 
activities is generally a good thing. But there are certainly 
aspects--there are certainly technologies that they have 
stated, including our own technologies and the ability to 
manufacture in space, to manufacture large assets and assemble 
them in space, which we believe have a--provide an asymmetric 
advantage to the U.S. military, that we should be cognizant of 
other countries attempting to develop as we move forward.
    The Chairman. Last year, Russia signaled that it might 
separate the Russian segment of the ISS from the American 
segment sometime between 2023 and 2024. What would it mean to 
the United States and to our space program if Russia were to 
separate from the ISS? And could you foresee Russia operating 
its own station or partnering with China in doing so?
    Mr. Bigelow. We've had some business relationships with the 
Russians, and we were treated very well. So what we learned is 
that they are very accomplished, and they tend to build things 
that are bullet-proof, you know, as an alternative to other 
approaches in terms of the way that you have a philosophy in 
creating space hardware.
    I think it would be devastating to the Station, in my 
understanding, was initially created as a mechanism to do two 
or three or four different kinds of things, and one of those 
was to gather together a number of countries in a communal 
relationship that was unique. I think that the history of the 
Station ought to be that, when it's written--the cessation of 
the station ought to be in some kind of a context that emerges 
into something else that, if not profound, at least was 
amenable to everybody, and it wasn't a step going backward.
    I would see a dislocation of those modules by the Russians 
as a step backwards, unless there was some kind of alternative 
agreement that said, ``Well, they may do that, but, oh, by the 
way, we are doing other things here to continue the 
relationship between the two countries.'' And I don't see that 
that necessarily also is not applicable to China in some way. I 
wouldn't say that--again, it's not a zero sum game. I don't see 
these as being mutually exclusive.
    The Chairman. Thank you.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    This first question is for Mr. Whitesides, but I certainly 
would love to have a response from all the panel. As we all 
know, certain countries have and continue to unfairly subsidize 
their commercial activity, and this undermines competitiveness 
of many U.S. companies in many different industries. But in 
many sectors, a clear line can be drawn between appropriate 
government support of industry versus anti-competitive business 
practices. For example, there's a difference between providing 
infrastructure and then awarding contracts with that underlying 
infrastructure versus state-owned enterprises that really 
undercut free market enterprise.
    So my question is as the commercial space industry 
continues to mature, are you concerned that certain governments 
are going to undermine companies like yours?
    Mr. Whitesides. We are, Senator, and I think it's something 
that Congress should maintain an awareness of and potentially 
to consider as it thinks about future actions. I think that the 
principles that we would think about are reciprocity--are 
American companies able to sell into that market? That's an 
important question. Often, that is not the case--and the 
creation of corporate entities whose sole purpose is to sell 
into the commercial marketplace, which often does not allow 
fair commercial competition.
    So, you know, what we've done is invested hundreds of 
millions of dollars to create new commercial space platforms 
that we hope to compete successfully. We're asking for a fair 
shot, both in the U.S. markets and abroad. And because these 
markets are intrinsically global, if certain players are 
competing in different terms, then that's something that I 
think the Congress should be aware of.
    Senator Peters. It's global, but there are also a small 
number of players and it seems like because there are a small 
number of players that you're also more susceptible to 
potential anti-competitive behavior by other countries and 
their programs. Is that accurate?
    Mr. Whitesides. Yes. There are certainly a limited number 
of operators around the world, and, you know, it's a very price 
sensitive market. So these are important issues, I think, for 
Congress to be thinking about.
    Senator Peters. Do others have concerns?
    Mr. Meyerson. I'd like to add--I mean, these space programs 
are a matter of national pride. They're national programs. So 
it is--you know, having a space program is something that any 
large government takes great pride in. I think we can take 
great pride in the innovation that's coming out of the United 
States aerospace industry with companies that are on this panel 
and others, and, certainly from my standpoint, demonstrating 
reusability, which has the greatest potential for lowering cost 
of access to space and increasing space access for all, not 
just Americans but people and payloads throughout the world.
    So, yes, I agree with Mr. Whitesides that we want to make 
sure that we have a fair shot at access to these foreign 
markets. But we should take a lot of pride that that innovation 
is continuing in the United States, and if we can combine that 
with some of the regulatory streamlining I talked about 
earlier, I think it can help the U.S. broaden markets.
    Senator Peters. Thinking of the commercial space industry, 
is there a line that we draw between appropriate government 
support and anti-competitive behavior that we may see from 
other countries?
    Mr. Bigelow. It's tough to compete against operations that 
are government-supported financially, which is not uncommon.
    Senator Peters. Right.
    Mr. Bigelow. And so that's a significant challenge, because 
now you're competing against something with a very powerful 
money-printing partner capability. So that's certainly a 
significant challenge. How you regulate that or prohibit that, 
I don't know.
    Senator Peters. Right. Thank you very much. I appreciate 
it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Peters.
    I want to thank each of the witnesses for coming this 
morning. I think this has been a productive and informative 
hearing, and I thank you for the time and energy you have 
invested in being here and for the leadership you provide in 
commercial space. It is important, not just to your companies, 
but to the United States as a whole, to the national interest, 
and to the future.
    The hearing record for this hearing will remain open for 2 
weeks. During this time, Senators are asked to submit any 
questions for the record, and upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    And with that, this hearing is now adjourned.
    [Whereupon, at 11:30 a.m., the hearing was adjourned.]

                            A P P E N D I X

   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                           Robert T. Bigelow
    Question 1. Space exploration creates vast opportunities for 
scientific discovery, advancing our knowledge here on Earth, and 
creating new and unique places for businesses to thrive. For decades, 
we as a nation have prioritized sound science in our academic 
institutions, and in our government. I recently called upon the 
President to continue this age-old tradition and act swiftly in 
appointing well-qualified experts to the Office of Science and 
Technology Policy so that our government can remain informed on areas 
where science affects our national security, economy, U.S. 
competitiveness, and innovation. Do you agree that we need leaders in 
our government who will focus on science and fact-based decision making 
for space exploration to thrive? Can you speak to how our Federal 
efforts in science and technology at NASA and in other areas of our 
government bolster or complement the work of the private sector?
    Answer. I believe that we need leaders who understand that people 
with business acumen provide the necessary and valuable experience to 
enable free enterprise in space. The costs and risks associated with 
space exploration and utilization require more than just a fundamental 
understanding of science, but also economics and budgetary constraints 
to successfully move humans and spacecraft beyond Earth orbit. In order 
to effectuate good science and fact-based decision making, I believe 
that we need bold leadership to further the American ideals of life, 
liberty, and the pursuit of happiness in space. Bold leaders understand 
that to achieve success, one must accept the risk of failure and 
responsibly balance risks and rewards. I believe that continuing 
adaptive contracting vehicles such as Space Act Agreements and Other 
Transaction Authorities will bolster Federal efforts in science and 
technology because these vehicles enable the commercial sector to 
contribute as a partner in the technological development of space 
capabilities, sharing resources and risks across the public and private 
sectors.

    Question 2. According to NASA, there are over 500,000 pieces of 
debris orbiting the Earth. This debris ranges in size from non-
functional satellites, to fragmented debris as small as nickles and 
dimes, or even specks of paint. This debris travels around the Earth at 
speeds of up to 17,500 miles per hour, roughly ten times faster than a 
bullet. At these speeds even the tiniest bits of debris can cause 
damage, and windows on the Space Shuttle were replaced because of 
damage from tiny debris. In 2007, China blew up one of its satellites 
with a ballistic missile, creating over 3,000 new pieces of space 
debris. In 2013 Russian engineers confirmed that pieces of this debris 
collided with one of their satellites. In 2009 an active American 
satellite collided with an inoperative Russian satellite still in 
orbit. When this type of debris comes near the ISS the crew climbs into 
their escape pod and simply hopes nothing happens. With the increasing 
launches of micro-satellites and decreasing launch costs it is now 
easier than ever to launch craft into low Earth orbit, and the problem 
is likely to increase many times over. Do you believe that current 
processes and regulations in the United States are sufficient to 
mitigate the increase in space debris? Do you think that there are 
opportunities where we can improve our mitigation efforts without 
hindering commercial development of space?
    Answer. I do not believe that commercial space activities will be 
the predominant source of future debris because commerce does not 
thrive in congested and contested environments. Commercial space actors 
are strongly incentivized to responsibly avoid generation of debris as 
fundamental to the success of their business operations. Rather, it is 
foreign and Federal governmental activities, particularly military, 
that have and may continue to create debris hazards. The focus of 
effort should be on establishing international standards among national 
space actors rather than domestic regulation of commercial actors 
already demonstrating responsible debris practices.

    Question 3. I have a number of suppliers working on the Orion crew 
exploration program in my home state of New Hampshire. As many of you 
know, Orion is the next generation space vehicle that will be launched 
on the Space Launch System rocket in a few years, and will carry humans 
further into space than ever before.
    The question I would like to ask is, How can the U.S. maintain a 
robust and functional industrial base that supports both government and 
commercial space activities?
    Answer. The U.S. can maintain a robust and functional industrial 
base through the maximization and integration of the best business 
leaders and entrepreneurs into planning space activities that enable 
robust and innovative technologies for space exploration and 
utilization. The commercialization of traditional space activities 
enhances the American industrial base by incentivizing and enabling 
sustainable employment in technological and non-technological sectors 
while preserving limited Federal funding, through servicing both 
governmental and private customers. In particular, a company like 
Bigelow Aerospace can provide market certainty that there will be a 
destination to test technologies and other capabilities when we bring 
online two flight ready B330s at the end of 2020. In doing so, we will 
be able to provide an accessible, affordable pathway for inventors and 
creators to realize their efforts in commercializing their ideas, from 
terrestrial development to deployment in space. Providing regulatory 
certainty to commercial entities will enable the economies to grow and 
maintain a robust industrial base that can support both government and 
commercial space activities.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                            Robert Meyerson
    Question 1. What do you see as the biggest needs for enabling a 
dramatic increase in launch cadence at the Cape in terms of shared 
infrastructure, the licensing and approval process, scheduling and de-
conflicting launches or other areas where we may be of help?
    Answer. An increase in launch cadence at the Cape would be enabled 
by streamlining the regulatory process for reusable rocket launches 
from Federal Ranges. Currently Air Force safety requirements for 
launching reusable vehicles from a Federal Range are completely 
different from the Office of Commercial Space Transportation (AST) 
reusable launch vehicle license requirements, yet they claim to address 
the same goal: public safety. The presence of duplicative authorities 
creates an onerous approval process for the launch operators trying to 
make the biggest strides in this industry--those pursuing reusability. 
Efforts focused on aligning requirements and removing these duplicative 
authorities will ease the burden on commercial launch providers. 
Similarly, scheduling and de-conflicting launches from aviation users 
in the national airspace is a critical long-term need. FAA should 
address and prioritize with both AST and the FAA's Air Traffic 
Organization efforts to fully integrate commercial space activities as 
equal users of the national airspace system.
    Additionally, supporting NASA Enhanced Use Lease In-Kind 
Consideration will also help the Cape by allowing NASA to cultivate 
public-private partnerships to transform underutilized real property, 
including launch and test infrastructure remaining from the Apollo and 
Space Shuttle eras.

    Question 2. A number of emerging commercial space activities are 
not covered by existing regulatory authorities. We will need to provide 
the appropriate level of supervision for activities in space and we 
need to provide regulatory certainty for industry. The previous 
administration proposed expanding the Department of Transportation's 
jurisdiction to approve and authorize activities in space that aren't 
covered already by the FCC, Department of Commerce, or Department of 
Transportation. Do you think it makes sense to expand the purview of 
the Department of Transportation to approve new activities in space 
that are not covered under existing authorities? If not, what would you 
suggest as an alternative?
    Answer. Blue Origin is open to the expansion of authorities at the 
Department of Transportation to meet U.S. obligations under the Outer 
Space Treaty for ``authorization and continuing supervision'' for 
activities carried on in outer space. This effort would require only a 
narrow expansion of DOT's authority and could be accomplished with 
minimal additional demand on existing resources. However, it is 
important to note that the FAA Office of Commercial Space 
Transportation is currently under-resourced to fulfill its existing 
mandates for launch, reentry, and spaceport needs. We would advocate 
for an increase in AST's resources, with a near-term prioritization of 
its current authorities prior to adding any additional 
responsibilities.

    Question 3. What more does the FAA need to put in place to 
facilitate human spaceflight and how comfortable are you that the FAA 
will be ready when the time comes for you to start launching space 
flight participants?
    Answer. The current human spaceflight learning period regime is 
appropriate and allows companies to create rigorous internal safety 
standards and robust test programs for unique systems as they are 
developed. Recently, AST has supported industry consensus standards 
efforts, and by continuing to do so, AST can ensure that industry 
focuses on the standards development AST considers most important for 
human spaceflight safety. When the time comes for AST to further 
regulate space vehicles for passenger safety, AST can build off the 
work the industry has already performed by requiring an operator's 
compliance with industry standards for FAA-licensed activities.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                            Robert Meyerson
    Question 1. Space exploration creates vast opportunities for 
scientific discovery, advancing our knowledge here on Earth, and 
creating new and unique places for businesses to thrive. For decades, 
we as a nation have prioritized sound science in our academic 
institutions, and in our government. I recently called upon the 
President to continue this age-old tradition and act swiftly in 
appointing well-qualified experts to the Office of Science and 
Technology Policy so that our government can remain informed on areas 
where science affects our national security, economy, U.S. 
competitiveness, and innovation. Do you agree that we need leaders in 
our government who will focus on science and fact-based decision making 
for space exploration to thrive? Can you speak to how our Federal 
efforts in science and technology at NASA and in other areas of our 
government bolster or complement the work of the private sector?
    Answer. Blue Origin agrees that the country needs government 
leaders who focus on science and fact-based decision making for this 
industry to thrive. The work done by NASA and other government agencies 
has undeniably facilitated the growth of the private space sector. As 
the private space sector has developed, NASA has played a significant 
role as a partner and customer, and the two have become inextricably 
linked. Programs such as Commercial Crew and Cargo, DARPA's XS-1 
spaceplane program, and even the Department of Defense national 
security space launch programs are all examples of how the private 
sector and government complement each other to achieve shared 
interests. Emerging NASA programs like Flight Opportunities and 
NextSTEP continue to further this legacy by encouraging competition, 
utilizing innovative cost share approaches, and supporting industry-
agency knowledge exchange.

    Question 2. According to NASA, there are over 500,000 pieces of 
debris orbiting the Earth. This debris ranges in size from non-
functional satellites, to fragmented debris as small as nickles and 
dimes, or even specks of paint. This debris travels around the Earth at 
speeds of up to 17,500 miles per hour, roughly ten times faster than a 
bullet. At these speeds even the tiniest bits of debris can cause 
damage, and windows on the Space Shuttle were replaced because of 
damage from tiny debris. In 2007, China blew up one of its satellites 
with a ballistic missile, creating over 3,000 new pieces of space 
debris. In 2013, Russian engineers confirmed that pieces of this debris 
collided with one of their satellites. In 2009, an active American 
satellite collided with an inoperative Russian satellite still in 
orbit. When this type of debris comes near the ISS the crew climbs into 
their escape pod and simply hopes nothing happens. With the increasing 
launches of micro-satellites and decreasing launch costs it is now 
easier than ever to launch craft into low Earth orbit, and the problem 
is likely to increase many times over. Do you believe that current 
processes and regulations in the United States are sufficient to 
mitigate the increase in space debris? Do you think that there are 
opportunities where we can improve our mitigation efforts without 
hindering commercial development of space?
    Answer. We believe current processes and regulations are 
sufficient, but we also understand the increasing burden on the 
Department of Defense in tracking space debris and facilitating 
collision avoidance among commercial entities. Currently, 
internationally recognized debris mitigation guidelines must be met by 
industry prior to receiving any FCC, NOAA, or FAA licenses for space 
operations. We support and encourage advancements in technologies with 
the objective of removing space debris and enhancing collision 
avoidance. Furthermore, commercial entities have access to data and 
tools for conducting conjunction analyses and maintaining space 
situational awareness, and have expressed willingness to partner with 
the government on this crucial task. While we appreciate DOD's desire 
to transfer this function to a civil agency, we strongly encourage the 
fullest possible utilization of commercial capabilities as a near-term 
solution.

    Question 3. I have a number of suppliers working on the Orion crew 
exploration program in my home state of New Hampshire. As many of you 
know, Orion is the next generation space vehicle that will be launched 
on the Space Launch System rocket in a few years, and will carry humans 
further into space than ever before.
    The question I would like to ask is, How can the U.S. maintain a 
robust and functional industrial base that supports both government and 
commercial space activities?
    Answer. A robust industrial base is enabled by setting clear U.S. 
Government civil and national security space goals. The government 
plays a critical role by being a reliable customer and a promoter of 
innovation while reducing regulatory barriers and burdens. We believe 
it is better for the U.S. Government to be one among many customers for 
the commercial space industry, as opposed to shouldering the entire 
industrial base.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Bill Nelson to 
                           George Whitesides
    Question 1. What do you see as the biggest needs for enabling a 
dramatic increase in launch cadence at the Cape in terms of shared 
infrastructure, the licensing and approval process, scheduling and de-
conflicting launches or other areas where we may be of help?
    Answer. Support and encouragement for autonomous flight termination 
systems, and how those systems interface smoothly with the national 
airspace system.
    Support for standardized launch licenses that permit multiple 
standard launches on a given flight path, similar to suborbital 
reusable flights.
    Continued government support for physical infrastructure--roads, 
bridges, rail, seaport, etc.
    Assistance on delivery of critical utilities and commodities such 
as power, water, communications, propellants and hazardous material 
handling.
    Continue support for infrastructure of safety, security, and 
response.
    Support for ``lifestyle infrastructure'' so that the Cape can 
attract the best and brightest new talent.

    Question 2. What more does the FAA need to put in place to 
facilitate human spaceflight and how comfortable are you that the FAA 
will be ready when the time comes for you to start launching space 
flight participants?
    Answer. Currently the Office of Commercial Space (AST) within the 
FAA has been great to work with for the licensing of our human 
spaceflight vehicle. They have been doing great work in preparation of 
human spaceflight, like recently releasing guidelines for informed 
consent. However, as we move from test flight to commercial operations 
for the launch of space flight participants, AST needs increased 
resources to accommodate the increased launch cadence. In addition, as 
we gain more flight data and continuously improve our systems, AST 
should also maintain up to date regulations that take into account the 
latest commercial technology in use. This takes resources that AST does 
not currently have.

    Question 3. A number of emerging commercial space activities are 
not covered by existing regulatory authorities. We will need to provide 
the appropriate level of supervision for activities in space and we 
need to provide regulatory certainty for industry. The previous 
administration proposed expanding the Department of Transportation's 
jurisdiction to approve and authorize activities in space that aren't 
covered already by the FCC, Department of Commerce, or Department of 
Transportation. Do you think it makes sense to expand the purview of 
the Department of Transportation to approve new activities in space 
that are not covered under existing authorities? If not, what would you 
suggest as an alternative?
    Answer. Much like the current launch environment, we need a stable, 
predictable, and permissive regulatory environment that promotes 
innovation. This can take many forms, but the regulatory environment 
should be one that allows for sustainable and efficient processes for 
commercial companies to do business.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                           George Whitesides
    Question 1. Space exploration creates vast opportunities for 
scientific discovery, advancing our knowledge here on Earth, and 
creating new and unique places for businesses to thrive. For decades, 
we as a nation have prioritized sound science in our academic 
institutions, and in our government. I recently called upon the 
President to continue this age-old tradition and act swiftly in 
appointing well-qualified experts to the Office of Science and 
Technology Policy so that our government can remain informed on areas 
where science affects our national security, economy, U.S. 
competitiveness, and innovation. Do you agree that we need leaders in 
our government who will focus on science and fact-based decision making 
for space exploration to thrive? Can you speak to how our Federal 
efforts in science and technology at NASA and in other areas of our 
government bolster or complement the work of the private sector?
    Answer. Many of the current efforts in science and technology 
development use commercial services in one way or another, but there is 
room for increased partnership with industry. For example, NASA's 
Flight Opportunities Program provides commercial suborbital flights for 
technology development payloads to raise the TRLs of technology 
critical to the mission of the agency. Another program within NASA, 
called Venture Class Launch Services, uses commercial small launch 
providers to launch small satellites from the Science Mission 
Directorate to perform low-cost, high-value science. Programs such as 
these, and others that use commercial services to provide an 
opportunity to do cost-effective and frequent research and technology 
development will further the agency's work in a fiscally-responsible 
yet innovative way.

    Question 2. According to NASA, there are over 500,000 pieces of 
debris orbiting the Earth. This debris ranges in size from non-
functional satellites, to fragmented debris as small as nickles and 
dimes, or even specks of paint. This debris travels around the Earth at 
speeds of up to 17,500 miles per hour, roughly ten times faster than a 
bullet. At these speeds even the tiniest bits of debris can cause 
damage, and windows on the Space Shuttle were replaced because of 
damage from tiny debris. In 2007, China blew up one of its satellites 
with a ballistic missile, creating over 3,000 new pieces of space 
debris. In 2013 Russian engineers confirmed that pieces of this debris 
collided with one of their satellites. In 2009 an active American 
satellite collided with an inoperative Russian satellite still in 
orbit. When this type of debris comes near the ISS the crew climbs into 
their escape pod and simply hopes nothing happens. With the increasing 
launches of micro-satellites and decreasing launch costs it is now 
easier than ever to launch craft into low Earth orbit, and the problem 
is likely to increase many times over. Do you believe that current 
processes and regulations in the United States are sufficient to 
mitigate the increase in space debris? Do you think that there are 
opportunities where we can improve our mitigation efforts without 
hindering commercial development of space?
    Answer. Virgin is committed to running a long-term sustainable 
space business, and this includes preserving access to space by 
preventing and managing debris. With the success of small satellite 
technology and business cases, we will indeed begin to see increased 
activity on orbit. One opportunity to improve mitigation efforts 
without hindering commercial development of space would be to begin 
efforts, with industry, to review and revise existing IADC space debris 
mitigation efforts that were put into place over 25 years ago. Such a 
review would likely reveal that there are a number of ways in which the 
U.S. could lead a collaborative global effort to minimize future space 
debris.

    Question 3. I have a number of suppliers working on the Orion crew 
exploration program in my home state of New Hampshire. As many of you 
know, Orion is the next generation space vehicle that will be launched 
on the Space Launch System rocket in a few years, and will carry humans 
further into space than ever before.
    The question I would like to ask is, ``How can the U.S. maintain a 
robust and functional industrial base that supports both government and 
commercial space activities?
    Answer. The exploration of space will always include both 
government and commercial space activities. To maintain a robust 
industrial base:
    First and foremost, the United States should seek to implement 
policies that encourage private sector innovation and minimize 
regulatory burdens. The industrial base is rarely a problem in vibrant 
and growing industries.
    As the U.S. Government seeks to develop new and innovative space 
capabilities, it should encourage partnership with the commercial space 
sector. This will allow Government programs more capability to achieve 
agency goals in a cost-effective manner, and create a healthy 
industrial base in the U.S. for both civil and defense purposes.
    The Government should refrain from using taxpayer dollars to fund 
programs that directly compete with commercial available or emerging 
services. There are many missions and objectives within NASA that only 
the U.S. Government has the ability to fulfill--however, by using 
commercially available services where available, the Government can 
make greater use of its unique in-house capabilities to explore further 
and achieve once inaccessible destinations.
    When partnering with the commercial industry, government should 
strive to use firm-fixed price contracts and efficient acquisition 
strategies. Overly burdensome and costly contracting methods will 
stifle private sector innovation and shrink the commercial space 
industrial base in which government could benefit from.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maggie Hassan to 
                              Andrew Rush
    Question 1. Space exploration creates vast opportunities for 
scientific discovery, advancing our knowledge here on Earth, and 
creating new and unique places for businesses to thrive. For decades, 
we as a nation have prioritized sound science in our academic 
institutions, and in our government. I recently called upon the 
President to continue this age-old tradition and act swiftly in 
appointing well-qualified experts to the Office of Science and 
Technology Policy so that our government can remain informed on areas 
where science affects our national security, economy, U.S. 
competitiveness, and innovation. Do you agree that we need leaders in 
our government who will focus on science and fact-based decision making 
for space exploration to thrive? Can you speak to how our Federal 
efforts in science and technology at NASA and in other areas of our 
government bolster or complement the work of the private sector?
    Answer. Reasoning based on sound scientific and technical analysis 
is crucial to a sustainable, thriving space exploration program. It is 
also critical for space-based industry to profitably grow. Technology 
development by NASA and other government agencies are a critical engine 
of economic development. Via the SBIR program, initial technology 
development is done which is often too risky or speculative for private 
investment. Once developed, products, services, and sometimes entire 
sectors flourish, based on the government funded work. For example, 
NASA SBIR funded research into 3D printing in space. Now, Made In Space 
is operated a commercial 3D printing facility on the ISS and 
manufacturing parts for customers in space on a routine basis. While 
SBIR excels at transitioning technologies on the lower end of the 
Technology Readiness Level (TRL) spectrum, programs like the Tipping 
Point Program from NASA's Space Technology Mission Directorate, 
facilitate further development and commercialization of new technology. 
This ensures that returns are realized on initial investments and that 
technology is available at a cost effective rate for NASA and other 
government agency use.

    Question 2. I have a number of suppliers working on the Orion crew 
exploration program in my home state of New Hampshire. As many of you 
know, Orion is the next generation space vehicle that will be launched 
on the Space Launch System rocket in a few years, and will carry humans 
further into space than ever before.
    The question I would like to ask is, ``How can the U.S. maintain a 
robust and functional industrial base that supports both government and 
commercial space activities?
    Answer. The U.S. can maintain a robust and functional industrial 
base that supports both government and commercial space activities by: 
(1) clearly defining intellectual property rights for commercial 
companies operating in space, including aboard U.S. assets and the 
International Space Station (ISS); (2) providing for a transition plan 
in Low Earth Orbit from the ISS to commercial space stations; and (3) 
making continued investment in space technology development via NASA's 
Space Technology Mission Directorate, the Advanced Explorations Systems 
division of the Human Exploration and Operations Mission Directorate, 
the ISS Program Office, and others.

                                  [all]

                  This page intentionally left blank.
      
</pre></body></html>
